<html>
<title> - [H.A.S.C. No. 111-175]TRANSFORMATION IN PROGRESS: THE SERVICES'ENLISTED PROFESSIONAL MILITARY EDUCATION PROGRAMS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]






                                     

                         [H.A.S.C. No. 111-175]

 
                      TRANSFORMATION IN PROGRESS:
    THE SERVICES' ENLISTED PROFESSIONAL MILITARY EDUCATION PROGRAMS

                               __________

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             JULY 28, 2010

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     
  

                  U.S. GOVERNMENT PRINTING OFFICE
61-633                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e483948ba4879197908c818894ca878b89ca">[email&#160;protected]</a>  


              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                     VIC SNYDER, Arkansas, Chairman
JOHN SPRATT, South Carolina          ROB WITTMAN, Virginia
SUSAN A. DAVIS, California           WALTER B. JONES, North Carolina
JIM COOPER, Tennessee                MIKE ROGERS, Alabama
JOE SESTAK, Pennsylvania             TRENT FRANKS, Arizona
GLENN NYE, Virginia                  CATHY McMORRIS RODGERS, Washington
CHELLIE PINGREE, Maine               DOUG LAMBORN, Colorado
NIKI TSONGAS, Massachusetts          TODD RUSSELL PLATTS, Pennsylvania

                Lorry Fenner, Professional Staff Member
                Thomas Hawley, Professional Staff Member
                      Trey Howard, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2010

                                                                   Page

Hearing:

Wednesday, July 28, 2010, Transformation in Progress: The 
  Services' Enlisted Professional Military Education Programs....     1

Appendix:

Wednesday, July 28, 2010.........................................    35
                              ----------                              

                        WEDNESDAY, JULY 28, 2010
    TRANSFORMATION IN PROGRESS: THE SERVICES' ENLISTED PROFESSIONAL 
                      MILITARY EDUCATION PROGRAMS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................    11
Snyder, Hon. Vic, a Representative from Arkansas, Chairman, 
  Subcommittee on Oversight and Investigations...................     1
Wittman, Hon. Rob, a Representative from Virginia, Ranking 
  Member, Subcommittee on Oversight and Investigations...........     2

                               WITNESSES

Lutterloh, Scott, Director, Total Force Requirements Division, 
  U.S. Navy......................................................     7
Minick, Col. James J., USMC, Director, Enlisted Professional 
  Military Education, Marine Corps University, U.S. Marine Corps.     4
Sitterly, Daniel R., Director of Force Development, Deputy Chief 
  of Staff, Manpower and Personnel, U.S. Air Force...............     9
Sparks, John D., Director, Institute for Noncommissioned Officer 
  Professional Development, Training and Doctrine Command, U.S. 
  Army...........................................................     5

                                APPENDIX

Prepared Statements:

    Lutterloh, Scott.............................................    81
    Minick, Col. James J.........................................    42
    Sitterly, Daniel R...........................................    86
    Sparks, John D...............................................    63
    Wittman, Hon. Rob............................................    39
Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Dr. Snyder...................................................    95

Questions Submitted by Members Post Hearing:

    Dr. Snyder...................................................    99


               TRANSFORMATION IN PROGRESS: THE SERVICES' 
           ENLISTED PROFESSIONAL MILITARY EDUCATION PROGRAMS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Oversight and Investigations,
                          Washington, DC, Wednesday, July 28, 2010.
    The subcommittee met, pursuant to call, at 1:36 p.m., in 
room 2212, Rayburn House Office Building, Hon. Vic Snyder 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. VIC SNYDER, A REPRESENTATIVE FROM 
       ARKANSAS, CHAIRMAN, SUBCOMMITTEE ON OVERSIGHT AND 
                         INVESTIGATIONS

    Dr. Snyder. Welcome to the Subcommittee on Oversight and 
Investigations hearing on the services' progress in 
transforming the enlisted professional military education or 
EPME [enlisted professional military education].
    I would also like to welcome Chairman Ike Skelton, who is 
from Missouri, who is a longtime supporter and friend of the 
military, but has taken a special interest over several decades 
now in military education.
    We appreciate you being here today, Mr. Chairman.
    This subcommittee spent over a year studying officer 
professional military education that culminated in our April 
report. Education for our enlisted force is just as important. 
Noncommissioned officers, NCOs, are the backbone of the 
military.
    I can't emphasize enough how much things have changed and 
are still changing. Until the last three decades, our military 
consisted of a very small core of professionals augmented in 
times of crisis by large numbers of volunteers and conscripts. 
NCOs have always been the core of the professional part of our 
military, but they were primarily expected to maintain 
discipline and train their juniors.
    Enlisted personnel often came in with barely a high school 
education, and the bulk of them only served one enlistment. 
They needed a lot of technical training and military training.
    Over time our enlisted force is growing to be a much better 
educated group of professionals that enter the military much 
more technically astute than their superiors, but still 
requiring training and military leadership development and now 
further education in everything from national security strategy 
to resource management to cultural environments.
    In the post-Cold War era and with the wars in Iraq and 
Afghanistan, we have seen an even greater transition in the 
role of NCOs. Officers are expected to perform generally their 
same historic roles in a vastly different environment, but our 
NCOs are now called upon to perform significantly different 
roles in a vastly different environment.
    NCOs are now expected to be full partners with mid-level 
and senior officers in planning and executing operations and in 
managing and leading the force. They are called upon more than 
ever to participate in joint interagency and multinational 
operations and staff work, as well as to understand and 
contribute to strategies.
    Because demands on our enlisted personnel have changed 
dramatically, our training and education systems must change 
dramatically. The services have to start the preparation of 
enlisted personnel during their first enlistment, if they are 
to have the tools necessary to perform as NCOs a mere 4 years 
later.
    The services have in fact all embarked in transitioning 
their training and education systems. Some are drastically 
transforming their systems. This is what we will explore today. 
How far and how fast have the services advanced their systems, 
and how much farther do they need to go? And what can this 
Congress and the American people do to help?
    The Congress does have a role to play in this effort. At 
least as much as with the officer corps, we should provide the 
oversight and support our enlisted personnel require--and the 
support our enlisted personnel require to succeed in their 
important profession, providing for our defense and security.
    We ask much of them; they should expect much from us. And 
this hearing is just the beginning of what will be a longer 
conversation, which is a metaphor for ``congressional 
oversight.''
    We have four witnesses today. Before I introduce them, I 
would like Mr. Wittman to make any comments he would like to 
make.

STATEMENT OF HON. ROB WITTMAN, A REPRESENTATIVE FROM VIRGINIA, 
  RANKING MEMBER, SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

    Mr. Wittman. Thank you, Chairman Snyder. Thank you so much 
for your leadership on the whole issue of professional military 
education.
    And good afternoon to our witnesses. Thank you so much for 
joining us today.
    As the chairman noted, over the past year this committee 
has conducted an extensive review of the officer professional 
military education system and recently published a lengthy 
report on our findings and our observations. Of necessity, that 
effort could not review all aspects of professional military 
education and focused on the rapidly evolving joint and 
interagency officer education requirements.
    Today, though, we turn our attention to one of those gaps--
enlisted professional military education. It will come as no 
surprise to a professional noncommissioned officer corps that 
the demands on the enlisted force to skillfully interact in 
complex interagency and international settings have greatly 
increased.
    In fact, many, if not most Army and Marine Corps patrols 
into Afghan villages are led by sergeants, not officers. Nor 
will it surprise our superb NCOs to find that officers seem to 
require formal education to get it right--that is, when 
compared to NCOs.
    As an example, we needed no fewer than six hearings on 
officer PME [professional military education] to sift through 
the complexities of the officer system, and we find we can 
address enlisted PME in a single hearing. That is good news for 
the enlisted force. After today's hearing you can confidently 
go about your business of training sergeants, chiefs and master 
chiefs largely unimpeded by Congress.
    Even so, the Congress does have a critical role to play. 
Our review in this hearing will establish a baseline from which 
future development will be judged, and I know that the Marine 
Corps is embarking on a much-needed and ambitious upgrade to 
its enlisted professional military education program. And if 
realized, the Marine Corps will have an excellent PME system 
for our enlisted personnel.
    And while I am optimistic, issues of course availability 
and resource allocation remain, and we stand ready to assist 
you wherever we can. We realize that it takes those resources 
to make enlisted PME happen. And I am gratified to see that 
each service has developed a series of noncommissioned officer 
courses that noncommissioned officers attend as they progress 
in rank.
    The services all have different approaches on timing 
requirements for promotion, course learning and distance 
learning components. While these differences are necessary to 
support the needs of a particular service, they should be 
supported. Where there are outliers from the other services and 
work to the disadvantage of noncommissioned officer corps of 
that military service, the practice should be reviewed by the 
service and changed as needed.
    And we on this subcommittee want to support our enlisted as 
much as possible, and we look forward to hearing of the many 
ways that we can help.
    Again, Mr. Chairman, thank you so much for your leadership 
on this. And it was great for us to have the opportunity to 
learn the efforts that are going on out there with enlisted 
PME, where the challenges remain, and where we can be there to 
help. And again, Mr. Chairman, I look forward to hearing from 
our witnesses.
    [The prepared statement of Mr. Wittman can be found in the 
Appendix on page 39.]
    Dr. Snyder. Thank you, Mr. Wittman.
    I want to acknowledge the presence of Dr. Lorry Fenner, who 
normally doesn't sit in the staff seat with us, but since she 
is here, the presence of her mother and sister back here, too, 
Mrs. Fenner, who had an encounter with a dog a few days ago, I 
think, and tripped and fell, we appreciate you all being here 
today.
    Chairman Skelton is here with us.
    You know, the report we have been talking about we entitled 
``Another Crossroads? Professional Military Education Two 
Decades After the Goldwater-Nichols Act and the Skelton 
Panel.'' So we put your name down here in posterity. Mr. 
Chairman, do you have any opening comments? [No.]
    Let me introduce our witnesses today. We are joined by 
Colonel James Minick, United States Marine Corps, Director of 
Enlisted PME at the Marine Corps University; Mr. John Sparks, 
Director of Institute for NCO Professional Development, 
Training and Doctrine Command, U.S. Army; Mr. Scott Lutterloh, 
Director, Total Force Requirements Division, U.S. Navy; Dr. Dan 
Sitterly, Director of Force Development, Deputy Chief of Staff, 
Manpower and Personnel, U.S. Air Force.
    We have your written statements. They will be made part of 
the written record. We will turn the clock on that wall--the 
red light will go off in about 5 minutes, but if you have other 
things you need to tell us, you go ahead and do that.
    And we will begin with you, Colonel Minick.

  STATEMENT OF COL. JAMES J. MINICK, USMC, DIRECTOR, ENLISTED 
PROFESSIONAL MILITARY EDUCATION, MARINE CORPS UNIVERSITY, U.S. 
                          MARINE CORPS

    Colonel Minick. Chairman Skelton, Chairman Snyder, and 
Ranking Member Wittman, I really do appreciate the opportunity 
to tell the Marine Corps story on enlisted PME--not only what 
we are developing, but what we have accomplished.
    I will say early in Operation Iraqi Freedom and Enduring 
Freedom, it became evident that the United States Marine Corps 
enlisted education program was not evolving to meet the 
challenges of a dynamic and changing battlefield. To ensure our 
enlisted Marines could meet the challenges of distributed 
operations and hybrid warfare, we knew we had to make some 
changes.
    We empowered our Marines to be able to adapt and think 
critically and move on a changing battlefield, at the same time 
being able to act decisively. We believe developing and 
executing a professional education program provides a means to 
achieve that strategic corporal that our 31st commandant, 
General Krulak, envisioned in the late 1990s.
    In the history of the Marine Corps, the commitment to 
enlisted education has never been stronger. And as an example, 
I will tell you about my branch, enlisted PME, within the 
Marine Corps University.
    Just 4 years ago, enlisted PME was three Marines, three 
enlisted Marines, in the basement of Marine Corps University, 
with virtually no officer oversight. Today enlisted PME is 43 
personnel, both civilian and military education specialists, 
led by a Marine colonel.
    I will have to tell you that the vision of the president of 
Marine Corps University in concert with the commandant, our 
current commandant, Vision 2025, established enlisted PME as 
the number one priority in 2009 in Marine Corps University.
    Every summer between classes, between academic years, we 
reassess and we reevaluate the strategic plan. Again, 2 weeks 
ago General Neller established enlisted PME to remain the top 
priority within the university.
    The Marine Corps University is committed to the 
intellectual and professional development of our enlisted 
force. We believe that the dynamics of the current battlefield 
require it, and we are prepared to support it.
    The transformation of EPME I believe is a good news story. 
However, we believe there is a long ways to go. For exactly the 
comments that we have already heard from members of the 
subcommittee, we are prepared to make those challenges, and we 
feel confident we can move in that direction.
    I thank you for the opportunity to speak this afternoon, 
and I look forward to your questions.
    [The prepared statement of Colonel Minick can be found in 
the Appendix on page 42.]
    Dr. Snyder. Thank you, Colonel.
    Mr. Sparks.

     STATEMENT OF JOHN D. SPARKS, DIRECTOR, INSTITUTE FOR 
NONCOMMISSIONED OFFICER PROFESSIONAL DEVELOPMENT, TRAINING AND 
                  DOCTRINE COMMAND, U.S. ARMY

    Mr. Sparks. Chairman Skelton, Chairman Snyder, Congressman 
Wittman, distinguished members of the subcommittee, thank you 
for the opportunity to appear before you today.
    My name is John Sparks. I am the director of the Institute 
for Noncommissioned Officer Professional Development at the 
U.S. Army Training and Doctrine Command at Fort Monroe, 
Virginia. On behalf of General Dempsey, the commanding general, 
I appreciate the opportunity to speak with you today about 
Army's enlisted professional military education.
    Today's noncommissioned officer system is much different 
than the one I attended during my 30-year career in the Army. 
It has evolved into a dynamic system that plays a significant 
role in preparing and further developing noncommissioned 
officers through the continuum of their career.
    The richness and depth of that development is rooted in the 
knowledge and the experience not gained in the classroom, but 
gained while deployed in the training environment and practical 
exercises with Army joint and multinational engagement 
partners.
    Noncommissioned officers are the driving force behind the 
Army. They are the ones that carry out the orders given by 
commanders, direct and train our troops, and usually have the 
most experience. We are proud of our NCOs. We are so proud that 
in 2009 the Army declared that the Year of the NCO.
    It is therefore an honor for me to testify before the 
subcommittee on the Army's enlisted professional military 
education program and share with you a sense of the Army's way 
ahead. I will present two themes, the Army noncommissioned 
officer system of governance and structure and the 
noncommissioned officer leader development curriculum.
    The Army views enlisted professional military education as 
a subset of a larger system we call the noncommissioned officer 
education system, or NCOES. It is important to make that 
distinction, because the Army views education as holistic, 
sequential, and progressive. The reason for this is simple. The 
noncommissioned officer leader development model requires a 
balanced commitment to the three pillars of leader 
development--training, education, and experience.
    TRADOC [U.S. Army Training and Doctrine Command] recently 
created the Institute for the Noncommissioned Officer 
Professional Development, a special activity that reports to 
the commanding general of TRADOC, to serve as the NCO cohort 
lead responsible for coordinating vertically and horizontally 
across the Army, the Army Reserve and the Army National Guard.
    The second area I would like to discuss is our 
noncommissioned officer leader development curriculum. Our 
education has transformed significantly since its creation in 
1972. In its early years it was characterized as a singular, 
focused schoolhouse delivery training program, which delivered 
training to approximately 299 soldiers. Today we deliver 
training in a tiered, progressive education manner to nearly 
160,000 NCOs annually.
    We deliver this training through various mediums to include 
resident, Web-based and mobile training teams. The new regimen 
is continuous and starts when a soldier completes his initial 
entry training. It continues with that iterative construct of 
courses which progressively build upon education, experience, 
and training throughout a soldier's career.
    Course curriculum for Warrior Advanced Senior Leader 
Courses includes topics such as leadership, creative thinking, 
squad, platoon and company operations, conflict management, 
solving complex problems, resiliency, and developing 
subordinates.
    The Sergeants Major Course is overhauled and upgraded to 
include topics that officers study at the Command and General 
Staff College. The resident and non-resident Sergeants Major 
Course has some similar content to the intermediate-level 
education courses attended by captains and majors. The course 
is primarily designed to prepare our most senior 
noncommissioned officers for duty at the battalion and brigade 
level.
    Finally, the Army recognized the value and necessity of 
joint education throughout the continuum of professional 
development. Some joint professional military education is 
delivered through self-development modules and complements the 
Warrior Advanced Senior Leader Courses.
    In addition to the self-development and resident 
instruction given at the senior level, soldiers receive 
assignment-oriented training prior to assignment to joint 
positions at the grade of sergeant through sergeant major.
    In summation, the Army's enlisted professional military 
education program remains adapted to the needs of the current 
and future fighter. And we will continue to solicit feedback 
from the field, combatant commanders, and sister services, as 
we shape and transform our curriculum.
    Our assessment of the Army enlisted personnel education 
system is vetted and is healthy and achieving its objectives. 
We have developed an organization with a solid assessment and 
evaluation resource to ensure growth. Army leadership has 
emphasized the value of leader development and has made it 
priority number one.
    Recognizing the need to adapt, noncommissioned officer 
education has transformed from a singular focus, somewhat 
disparate program into a holistic, progressive system of 
sequential learning. We recognize, however, that the program is 
not without challenges. Education is an adaptive process, one 
which will require continuous adjustment, alignment, and 
assessment to ensure we are getting it right.
    Our NCOs deserve nothing less than our absolute full 
commitment to ensuring their ability to execute full-spectrum 
operations in an area of persistent conflict.
    Thank you for the opportunity. I look forward to the 
committee's questions.
    [The prepared statement of Mr. Sparks can be found in the 
Appendix on page 63.]
    Dr. Snyder. Thank you.
    Mr. Lutterloh.

      STATEMENT OF SCOTT LUTTERLOH, DIRECTOR, TOTAL FORCE 
                REQUIREMENTS DIVISION, U.S. NAVY

     Mr. Lutterloh. Good afternoon, Chairman Skelton, Chairman 
Snyder, Representative Wittman, Representative Davis, Dr. 
Fenner, and distinguished members of the Oversight and 
Investigation Subcommittee.
    I am honored to have the opportunity to appear before you 
to discuss the U.S. Navy's approach to enlisted professional 
military education. Our Navy enlisted force numbers over 
273,000 active and over 50,000 reserve sailors. These sailors 
serve in 72 ratings or career fields, and man ships, squadrons, 
and shore stations around the world.
    They are the foundation of an expeditionary Navy as they 
operate and maintain the systems that allow us to complete a 
wide spectrum of missions. Demands on their skills and 
dedication are high. We rely on them not only to support 
rotation and deployments that enable Navy's global presence, 
but to maintain their proficiency through training exercises 
and to meet emergent requirements that support combatant 
commanders and joint warfighters.
    The latter is highlighted by the fact that more than 8,600 
enlisted sailors are currently on the ground in an individual 
augmentee role supporting Navy, the joint force, and coalition 
operations.
    Navy has long invested in enlisted professional development 
through extensive initial and advanced skills training and a 
formal leadership development program.
    In 2008 we enhanced enlisted professional development 
opportunities through the implementation of a complete 
continuum of enlisted professional military education that 
spans a career from E-1 through E-9. This continuum contains 
progressive Navy professional military education designed to 
foster professionalism, Naval warfighting skills through 
military studies, and a deeper understanding of national and 
global security through a maritime lens, and the joint PME 
requirements established by the Chairman of the Joint Chiefs of 
Staff.
    Our continuum includes four Navy PME courses under the 
purview of the Naval War College, the same institution that 
oversees our officer development. Introductory, basic, primary-
level NPME [Navy PME] are available to sailors through our Navy 
knowledge online portal. This provides learners with 24-hour, 
7-day-a-week access to this valuable professional military 
education.
    Senior-level Navy professional military education is 
accomplished through a 6-week long resident course, as well as 
a nonresident alternative that blends several months of online 
work with 2 weeks in residence.
    At the executive level, our E-9s serving in or being 
assigned to join our combined headquarters or task forces in 
component operational and strategic level leadership positions 
may attend the Chairman Joint Chiefs of Staff Keystone Course.
    Navy PME complements the Navy's enlisted leadership 
development program that provides targeted leadership training 
for individual sailors at pivotal career points. Successive and 
progressive leadership training is conducted as unit training 
using standardized content. Members selected for E-4, E-5, E-6, 
and E-7 must complete the appropriate leadership course prior 
to advancement to those grades.
    For senior enlisted leaders, leadership development and 
EPME merge at the Senior Enlisted Academy, which is a 
prerequisite for the Command Master Chief and Chief of the Boat 
Leadership Course.
    Over the last decade, Navy end-strength has decreased, 
while our operational demands have grown. And even when the 
combat forces draw down in Iraq and Afghanistan, the Navy's 
high operating tempo will likely continue for the foreseeable 
future. Our enabling forces will remain in CENTCOM [U.S. 
Central Command] to provide protection, intelligence, 
surveillance, and reconnaissance. Additionally, we will 
maintain a forward deployed force of about 100 ships worldwide.
    The Navy successfully develops highly-regarded enlisted 
leaders, who serve in key assignments throughout DOD 
[Department of Defense]. While the Navy rapidly implemented our 
EPME continuum, it is largely in its infancy and is changing on 
3-year periodic.
    We expect the application of incremental EPME across a 
career will ultimately result in senior enlisted leaders who 
are not only technical experts in their career fields, but 
effective deck plate leaders, who also have the much greater 
perspective on the Navy and the joint force.
    The use of NKO [Navy knowledge online] to deliver Navy 
professional military education courses has been advantageous. 
It has allowed us to provide unlimited access to the education 
that enlisted sailors have not had before. Electronic delivery 
is cost-effective, convenient for today's Internet savvy 
sailors, and has enabled quick course revision to address 
topical concern and areas of interest.
    Our sailors are performing brilliantly, providing 
incredible service in the maritime, land, air, space, and 
cyberspace domains around the world today. EPME is producing 
better educated and more informed senior enlisted leaders and 
junior sailors.
    We appreciate the flexibility provided by the chairman to 
allow us to manage the content, quality, and conduct of our 
program. We are confident we have provided a balanced approach 
to sailor development that allows our skilled and innovative 
sailors to turn ships, aircraft, and technology into 
capabilities that can prevent conflict and win wars while 
enabling an appropriate work-life balance in the face of many 
demands.
    On behalf of the CNO [Chief of Naval Operations], Admiral 
Roughead, thank you for your continuing support for our 
professional development of our force.
    [The prepared statement of Mr. Lutterloh can be found in 
the Appendix on page 81.]
    Dr. Snyder. Thank you, Mr. Lutterloh.
    Mr. Sitterly.

STATEMENT OF DANIEL R. SITTERLY, DIRECTOR OF FORCE DEVELOPMENT, 
              DEPUTY CHIEF OF STAFF, MANPOWER AND 
                   PERSONNEL, U.S. AIR FORCE

     Mr. Sitterly. Thank you, Mr. Chairman, Chairman Skelton, 
Ranking Member Wittman, members of the Oversight and 
Investigations Subcommittee, for the opportunity for Chief 
Master Sergeant of the Air Force Roy and me to highlight our 
Air Force enlisted professional military education programs and 
policies.
    I'm very happy to have Chief Master Sergeant of the Air 
Force Roy here with me today.
    Chief Roy spends, I would guess, upward of 300 days out of 
the year on the road visiting our airmen, combatant commanders, 
and families in the field. We have a very close relationship 
where he gets direct feedback from the airmen and from the 
supervisors, and our airmen are not shy these days to let us 
know where the gaps in training and education are. We bring 
that back into our corporate process and sort of transform our 
systems as we work.
    General Steve Lorenz, the commander of Air Education and 
Training Command, and Lieutenant General Dick Newton, the 
Deputy Chief of Staff for Manpower and Personnel (A-1), also 
thank the subcommittee, and specifically Dr. Lorry Fenner and 
Mr. Tom Hawley and your professional staff, for the work that 
you did reviewing officer PME.
    As you well know, Secretary Donnelly and Chief of Staff 
Schwartz make developing talented and diverse airmen, all 
airmen, officers, enlisted and civilians, at the tactical, at 
the operational, at the strategic levels a top priority for the 
Air Force. We are working with Air University, with AETC [Air 
Education and Training Command] and the A-1 staff to implement 
the recommendations of this committee in your officer 
``Crossroads'' review. And we thank you for that.
    Our airmen are indeed our most important critical weapon 
system and our most important link to building partnerships 
across the globe. And this professional military education 
provides that relevant and responsive military education at the 
appropriate time in an airman's career to prepare our airman to 
lead and fight in airspace and cyberspace.
    Specifically, enlisted PME integrates the principles of 
sound leadership, communication skills, and military studies 
across the learning continuum to expand an airman's leadership 
ability and to strengthen their commitment to the profession of 
arms.
    To the integration of the Air Force institutional 
competencies, which I hope to talk a little bit more in detail 
when we get to questions and answers, and also directed by the 
Chairman of the Joint Chiefs of Staff, Air Force enlisted PME 
ensures a solid link between the capabilities and the mission 
needs across our entire enlisted career continuum.
    Ultimately, we deliver the right education at the right 
time throughout the careers of our airmen to ensure deliberate 
development of these vital tactical, operational, and strategic 
warfighters and thinkers. The enlisted PME continuum is tied to 
the level and scope of leader and manager responsibilities 
commensurate with promotions.
    And specifically for us in the Air Force, the timing of 
Airman Leadership School, Senior NCO Academy, and the Chief 
Master Sergeant Leadership Course attendance is tied to 
promotion to staff sergeant, senior master sergeant, and chief 
master sergeant, respectively.
    Selection of the faculty and senior staff is also key to 
the successful implementation of enlisted PME. The school 
commandants ensure that our faculty meet the qualifications and 
achieve the right balance of academic rigor and diversity. 
Although our operations tempo makes faculty manning an ongoing 
challenge at all levels of enlisted PME, we meet mission 
requirements.
    The Air Force maintains currency and relevance of EPME 
through a number of guiding apparati. Curricula incorporate 
current doctrine to ensure students are exposed to the very 
latest Air Force and joint lessons learned. In addition, the 
curriculum is influenced by the faculty, the students, and, as 
I mentioned, external feedback from the airmen, from 
supervisors, and from combatant commanders, as well as other 
inputs.
    Operational experiences also provide the necessary insight 
needed to inform the curricula. The Air Force Learning 
Committee, which I chair, is comprised of air staff 
functionals, major commands, and Air University. And that is 
the gatekeeping body that we use to maintain the balance and to 
validate the requests for curriculum change along with senior 
leadership priorities, functional requirements, and policy.
    Chief Master Sergeant of the Air Force Roy and I also co-
chair an enlisted force development panel, which looks to the 
future of the enlisted force development and anticipates 
changing requirements.
    To ensure enlisted PME is aligned with our priorities and 
force development strategies, we also conduct an enlisted PME 
triennial review, which we have just recently completed with 
our senior enlisted leadership and our subject matter experts. 
This exercise then ensures that the curriculum meets the 
applicable joint and force development policy and guidance, and 
it also considers things such as educational technologies, as 
well as the resources needed to make the future mission 
challenges.
    In the most recent review, we validated that our EPME 
programs are delivering the required education with the right 
breadth and depth to our enlisted airmen at the appropriate 
career points, but we also identified some improvement areas 
such as the earlier development, as we mentioned here--as, Mr. 
Chairman, you mentioned--as the changing role of our NCO 
requires us to move our timing of that deliberate development 
of education forward.
    And we also found some improvements in areas of our 
curriculum that we can modify in order to better meet our 
learning outcomes. And yes, the role of our enlisted airmen, 
and specifically the role of our NCOs, is constantly changing.
    In response, PME is continuously evolving to meet the 
demand for critical thinkers as well as for problem solvers 
with a broadened total force, joint, coalition, and global 
perspective so that we can more effectively operate in the 
dynamic and often uncertain environments in which we engage.
    The continued efforts of this committee and your 
initiatives to grow and develop highly qualified airmen is most 
appreciated. And it also ensures our ability to continue to 
fly, and fight in air, space, and cyberspace. Thank you, and I 
look forward to your questions.
    [The prepared statement of Mr. Sitterly can be found in the 
Appendix on page 86.]
    Dr. Snyder. I'm pleased to recognize Chairman Skelton.

STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM MISSOURI, 
                 CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. Thank you.
    Mr. Chairman, thank you. And I compliment you on calling 
this hearing. It is very, very important.
    Three weeks ago I attended a promotion ceremony for a young 
soldier who had been promoted to colonel. In the obligatory 
thank you message that always accompanies a promotion, the 
young colonel first off thanked all of the sergeants he had 
worked with.
    And I thought that was a telling thing, because without the 
advice and mentorship in his case, as well as in other cases, 
the young lieutenants and captains might very well just leave 
the military without the encouragement of someone who has more 
experience.
    I think it is important that the education of your NCOs, 
particularly those who reach the rank of senior NCOs, be very 
high. I have been an advocate that all military leaders be 
historians. There are some that have had a whole career that 
have never been in a position to walk on the battlefield, and 
yet there are those that have. But in the military you don't 
get to practice your profession every day or every week. You 
have to do a lot of training.
    A good trial lawyer, a good surgeon will have the 
opportunity on many, many occasions during a year to practice 
his or her profession. Not so with those in uniform. And of 
course, that is good. But when called upon to enter the 
battlefield or the sea space, you move to a victorious 
encounter. And you do that by outstanding leadership.
    And that is why it is important that noncommissioned 
officers, and particularly senior ranks, be steeped in military 
history, so that when situations arise that they have not 
experienced themselves, they will be in a position to 
consciously or subconsciously apply the lessons that they 
learned in the study of their profession.
    So I compliment you on this. I believe it is important. I 
mean, as Mr. Sitterly said--so very, very necessary. And as 
long as you have high-caliber--high-caliber--senior enlisted 
that play the role of advisors, leaders, and in many cases 
mentors, I think we will have a great set of young upcoming 
leaders in our country.
    I compliment you on your work. Keep it up. You can never 
have enough history courses, though. Thank you. And let me 
thank you again for this opportunity to join you.
    Dr. Snyder. Thank you, Mr. Chairman.
    Mr. Wittman for 5 minutes.
    Mr. Wittman. Thank you, Mr. Chairman.
    I thank the members of the panel for joining us today. I 
wanted to look across the board about what each of your 
enlisted PME programs brings to the table. I know that you are 
probably, through this hearing, aware not only of what your 
service branch does, but also what the other service branches 
do as far as enlisted PME.
    Let me ask you this. I want to kind of put those strengths 
and weaknesses into perspective so we can all use this as an 
experience where we learn from the other service branches. Tell 
me then from your perspective what you see from another service 
branch. And what is a strength in that program that you might 
like to reflect in your program?
    And, Colonel, let us begin with you. And we will just go 
down the table and get your perspective there.
    Colonel Minick. Yes, sir. I will say that if you look at 
our program and success that we have had in the last 4 years, I 
would look at it almost in four phases. First, we started with 
the content and refreshed that. The second is the delivery. The 
third would be the evaluation side of it, and then the last is 
the expansion.
    The Marine Corps was primarily focused on the sergeant, the 
Career Course, which is for our E-6, and the Advanced Course. 
But now we have expanded on both ends of the continuum so that 
we have exposed more Marines to education earlier.
    In regards to what we see at the other services, I have 
already been down to Fort Bliss. I have a chance to go down in 
September to Maxwell, and as well as up to Newport.
    What we found that we particularly liked, and I was just 
talking with Mr. Sparks about this, but went out and met a 
gentleman by the name of Dr. Boyle, former Marine, but was 
working at the Sergeants Major Academy out in El Paso.
    The delivery part that we are changing in the Marine Corps, 
I think that the Army already has it. And that is the Socratic 
teaching, the small breakouts, peer-to-peer learning, and the 
opportunity for that faculty advisor to be that critical link 
to the education experience.
    So I guess that--I hope that answers the question.
    Mr. Wittman. Mr. Sparks.
    Mr. Sparks. Sir, thank you. In the United States Army, we 
have really been getting at NCO education for quite some time. 
In the near history, we did a study in 2006 on exactly where we 
were going with it, the noncommissioned officer education 
system. What were the things that we felt like we could do 
better?
    We looked at delivery mechanisms and that sort of thing. As 
a matter fact, the Institute that I work with has actually 
emerged from that study. As a part of that study, we looked at 
all the services. We actually visited with the services to see 
what they actually do for NCO education.
    And I think the thing that I would take away as valuable 
from all, at least in my experience, is they are all in a 
degree of providing a higher level of education for 
noncommissioned officers. So there is something interesting, or 
it is an interesting perspective at least, to entertain the 
idea of how they present their instruction.
    We, certainly inside of my organization, have determined 
what we think is best for the Army. But with what is sort of 
the interest going on in the other services, it gives us the 
ability to kind of bounce our ideas against their ideas and 
what they do and how they see things.
    As a matter of fact, we have a program called College of 
the American Soldier that we established for the benefit of the 
advancement of enlisted soldiers in college degrees. One of the 
things we did at the beginning of that process is met with the 
Air Force and looked at their Community College of the Air 
Force effort.
    So I could go on, and there are many efforts. I think it is 
good to have some mutual collaboration and understand what the 
other services are doing. It is certainly helpful for us and 
the United States Army.
    Mr. Wittman. Mr. Lutterloh.
    Mr. Lutterloh. Representative Wittman, thank you for the 
opportunity to address this issue. I think the biggest single 
benefit we have with respect to the other services is the 
inclusion of other service staff members as our instructional 
force. So we include other service members. In fact, we are now 
in the business of shipping our own instructors down to Fort 
Bliss to participate in that. So we get tremendous feedback 
from that interaction.
    Our continuum is relatively new. We started that process of 
visiting the other schools. We have taken away some nuggets, 
some of them associated with technology. The use of 
``Blackboard'' we are implementing now, but primarily the use 
of other service instructors to focus on that connectivity 
across DOD and the inclusion of the other service students in 
our classes.
    At Navy we also have some international students, as you 
are probably aware. So that helps to round out that discussion 
within our courses.
    Mr. Wittman. Dr. Sitterly.
    Mr. Sitterly. Thank you for the question. Let me start by 
saying I am a graduate of the first three levels of our Air 
Force enlisted PME as an NCO, and then I became an actual PME 
instructor in it. And I have to say I was always jealous of the 
other services. I don't think that at that point in my career 
that I thought we spent enough time over a 20- or 30-year 
career in the classroom learning education. Some of the other 
services had a little bit more time in the classroom.
    That said, now that I am in the position that I am in now 
and have a better understanding of the Air Force institutional 
competency model and our continuum of learning, and that is we 
look at a building block approach from the eight Air Force 
institutional competencies and sub-competencies throughout all 
of our PME--officer PME, enlisted PME, education, training, the 
Air Force Academy--the same core institutional competencies, 
and we build upon them as an officer, airman, enlisted, 
civilian for that matter, go forward.
    And so through this continuum of learning, I think that we 
are doing it at the right time in the right places, and the 
experiential part is important as well. And we also have about 
27 percent of our enlisted force that obtain a college degree 
while they are in through the Community College of the Air 
Force.
    And so now looking at the amount of time we spend in the 
classroom, I think we have it about right through the 
continuum, the training piece, our five-level, seven-level, 
nine-level skill level training, the education piece, and the 
Leadership School, NCO Academy, Senior NCO Academy, and our 
recently added Chief's Leadership Course. I think we have it 
about right.
    Now, one of the gaps that we found recently as we looked at 
our institutional competencies, and because of the changing 
role of the NCO and how they are actually fighting wars today, 
if you will, in small groups, in decision-making, in problem 
solving, in critical thinking, we have determined that we 
probably need to move the time to the left.
    And so Chief Master Sergeant Roy has just implemented at 
the Barnes Center, where we do our enlisted PME, all folks who 
will now go before their senior master sergeant to the Senior 
NCO Academy, and we are now sort of fighting the resource 
battle to do the same thing for our NCO Academy so that they 
get it closer to the 10-year point than at the 12- or 13-year 
point. So thank you for the question.
    Mr. Wittman. Thank you, Mr. Chairman. I yield back.
    Dr. Snyder. Thank you, Mr. Wittman.
    I will start with you, Mr. Sitterly, so we will go the 
other way this time. And I think you all are getting at this 
question, but as you look ahead over the next 6 months to 1-
year timeframe--and I won't be here, so whatever you say I 
won't be able to follow up on, but Mrs. Davis and Mr. Skelton 
and Mr. Wittman will be here, so they can.
    But what things are you working on that you hope will be 
different 6 months or a year from now? And what things are you 
working on that you have a fear it won't be as far along as you 
would like it to be 6 months or a year from now?
    Mr. Sitterly.
    Mr. Sitterly. Thank you for the question, Mr. Chairman.
    When we did our triennial review recently, we looked at top 
to bottom of everything that we are presenting in our education 
in our classrooms, and so as we moved into the cyber missions, 
as we have more of a need to address things like cross-cultural 
competencies, things like the social media, resource 
management, so on and so forth, those are curricula that we 
need to add to our enlisted PME across the force. And we will 
do that in the next 6 months. Most of that is being done right 
now.
    We will also fight the resource battle to move our NCO 
Academy to the left. That will require some additional faculty, 
probably require some additional resources. I don't think we 
will have that done in the next 6 months, but I will fight that 
battle.
    Long-term--distance learning and technology and the 
application of how we actually teach people. Information 
technology, infrastructure is very, very expensive. And to make 
sure that we have integrated it through all of our various 
learning platforms and to get it right so that we can build 
upon that, we need to work very serious in that direction. And 
we are.
    Thank you, Mr. Chairman.
    Dr. Snyder. Mr. Lutterloh.
    Mr. Lutterloh. Yes, sir. Thank you for the question. I 
think the things that I am pretty confident about--we have a 3-
year cycle of updating our curricula, so we stood up the 
Primary Course focused on our chief petty officers in 2006. We 
upgraded that in 2009. I think it reflects totally relevant 
content for the time.
    We implemented our Primary, our Introductory Course and our 
Basic Course a little later than that. They are due for 
revision now. As a matter fact, we are undergoing revision now. 
That will come online in 2011. That content refresh is on track 
and working. So I think maintaining the relevance of our 
content is right on track.
    I mentioned before the joint instructors, the joint student 
load. I think that is continuing to increase.
    The things I worry about are balancing the educational and 
training workload of our enlisted force across their career 
from the career transition from civilian to sailor in boot 
camp, leader-follower discussions that we go through, how that 
relates to the development of technically savvy professional 
mariners, how we develop them into leaders, how we focus them 
on then naval leadership and being able to represent the Navy.
    Furthermore, into the joint environment there are a lot of 
knowledge, skills, and abilities to translate over a career, a 
lot of competing requirements. And right now, I am thinking 
about the policy associated with enlisted professional military 
education.
    Currently, it is not mandated for any specific pay grade. 
It is recommended. We have provided commands the flexibility to 
identify individually when that is most appropriate for an 
individual sailor. But we have got to clearly think about the 
policy ramifications of that in the future. So that is the 
thing I am most concerned about.
    I think the one other aspect would be bandwidth. Much of 
our enlisted professional military education is done over a 
distance. I worry about that bandwidth in an expeditionary 
force. So I think it is going to take us a couple of years, if 
not more, to completely resolve any bandwidth issues to 
completely make that training available, that education 
available to our force.
    Mr. Wittman. Mr. Sparks.
    Mr. Sparks. Thank you, sir. I spent 30 years as a 
noncommissioned officer, you know, I mean, up through almost 
senior courses, and as any NCO or former NCO would tell you, 
the strength of our education system is our ability to change, 
our ability to react to the needs of the force.
    I would submit that our reevaluation cycles of our 
curricula and programs of instruction are constant. There 
probably won't be a time when you can singularly say that every 
single program is correct. But what we can say is that it meets 
the needs of the force at that particular time, but we have to 
revise it or upgrade it to meet whatever we think the potential 
needs may be.
    So in respect to your question of what things do we think 
we will have done and what things are we concerned about, in 
the noncommissioned officer education system in the Army, we 
have just several programs now that we are moving forward in 
this next year. I will give you just a couple of examples.
    One of them is a structured self-development program, where 
the United States Army determines what areas are not covered in 
our professional military education system that should be 
covered across some sort of a lifelong learning continuum. We 
will implement that structured self-development system this 
year.
    Mr. Wittman. Give me some examples.
    Mr. Sparks. As Chairman Skelton mentioned, we believe there 
should be more of a relationship with military history and 
history of the noncommissioned officer corps early on in a 
soldier's career. Today in our noncommissioned officer 
education system, they experience those subjects, but we think 
they should experience them much earlier. So in a structured 
self-development program, we would incorporate those tasks that 
we think are important but didn't make it into our PME 
structure.
    To support that idea, we have created a lifelong learning 
continuum, where a soldier enters the Army, and he is always in 
a construct of learning. He never leaves the training model. He 
attends his advanced individual training, begins a structured 
self-development program that carries him into his first level 
of professional military education.
    We will start that program this year, and it is a fantastic 
program. It is very interesting. It is well received by the 
soldiers. We have had it through all of its testing phases, and 
we are ready to implement.
    We have a number of programs under the College of the 
American Soldier arena that we look to implement this year in 
the next 12 months. We have a program now that is called the 
Noncommissioned Officer Degree Program that has been up and 
running for a number of years. We are working on an enlisted 
degree program and a graduate program as well.
    I just met last week with our senior NCOs, some at the 
Sergeants Major Academy, to solicit their feedback. They are 
greatly excited about the program. As a matter of fact, in just 
our last Sergeants Major Course, we had about 34 soldiers 
graduate with a graduate degree. So we will look forward to 
implementing that program in the next year.
    Additionally, we have a whole series of ideas and thoughts 
we are experimenting now with mobile learning. Over the past 
several years, we found that most soldiers are very savvy when 
it comes to Internet tech connectivity and Internet education, 
so we have taken some of our courseware and looked at how we 
can deliver that on a mobile learning platform. Soldiers can 
literally learn from any direction.
    And sir, I realize I am over my time. The things that we 
worry about, quite frankly, are our ability to keep pace with 
the needs of the Army. We constantly evaluate our programs. We 
do a critical task selection for every single skill level and 
every single job in the Army. And what we want to do is 
constantly meet the needs of the force.
    We do that currently with rapid assessments and critique of 
our schools. We have accreditation teams that go out and visit 
with units coming back from combat, units that are going. We 
have two combat units that just finished our education 
processes that soldiers have just attended.
    So I am comfortable that we are doing everything possible 
we can to collect that data, but in my view that is the most 
paramount mission in our force is to keep up, keep pace with 
the needs of the United States Army.
    Mr. Wittman. Colonel.
    Colonel Minick. Sir, the near-term success that we are 
going to have is our faculty advisors course, which we just 
developed. We will pilot this fall.
    Dr. Snyder. Did you say faculty advisors?
    Colonel Minick. Yes, sir. Faculty advisors course where, 
like all services here, our schoolhouses are scattered around 
the globe. What I found in my first year on the job is that the 
critical piece is that faculty advisor, the one that is 
kneecap-to-kneecap with the student that is making a 
difference.
    We don't believe that in the past we have done enough to 
develop them, so we are piloting a new program that we believe 
will be proof of concept. We will do it this fall. But every 
faculty advisor now, when you get assigned to an academy, you 
will come to Quantico, and we will put you through a 2-week 
course.
    Now, what we say is, ``it is not a 2-week course, it is a 
3-year program.'' The start is the most important part. We get 
them early within the first 2 months in the billet, and then we 
develop that, and we continue to develop them all the way 
through a master instructor program while they are with us. So 
that is the near-term.
    The long-term--this year we got Training and Education 
Command (TECOM) to make an agreement that the same folks who do 
distance education for the officer corps are now going to do it 
for the enlisted Marines. There are two advantages to that.
    One, they have tremendous experience in how they have 
developed the officer program over the last 20 years. We can 
tap into that. And the second thing is you are now melding 
officer and enlisted education, which I think is a critical 
part of our success in the way forward to make sure that, just 
like you said, that lieutenant and that sergeant are all 
talking the same language.
    That by design--I shouldn't say by design--that is just 
going to take a long time. Developing distance education and 
using all the technologies, which will be Blackboard and 
everything else mentioned, we have a Program Objective 
Memorandum (POM) that is going to take us all the way out.
    When we are completely finished, it will be a seminar 
program so that, for example, in the Career Course they will do 
some online, but we will pull them together with adjunct 
faculty, and they will actually have peer-to-peer instructor to 
student seminars wherever we have an academy. So that is going 
to be a long-term project.
    Dr. Snyder. Thank you.
    Mrs. Davis.
    Mrs. Davis. Thank you.
    Thank you all for being here. I think you have touched a 
little bit on assessment, but I wanted to go back and perhaps 
have you speak to student assessment and how you monitor that 
and whether or not you are able to follow up with, you know, 
bosses in the field, essentially, to see whether or not the 
lessons were received.
    How do you do that? And what role does it play in the 
adaptive learning atmosphere that you have been reaching for? 
And I know in most cases, you know, we are not necessarily 
there yet finally, but how do you do that?
    Colonel Minick. What we have done in the past is that we 
find out from the student how we are doing, and we realize now 
that that is not the best metric. So just like you said, we 
truly believe our final customer is that commander and that 
senior enlisted leader that Marine is going back to.
    So we have developed, or we are in the process of 
developing, a survey assessment so that when that Marine 
returns, 6 months after he has left our schoolhouse, we are 
getting feedback. Was that time he spent with us beneficial 
towards his development?
    Mr. Sparks. Thank you, ma'am, for the question. In the Army 
we have a very aggressive assessment feedback system. The first 
assessment, of course, occurs with the student in a particular 
course, and we are able to assess how he progresses through the 
course.
    But relative to, I think, your comment about how do we 
evaluate our courses, each student when he graduates from the 
course, he goes through a series of feedback mechanisms. One, 
he does interviews and assessments with folks like me, where I 
sit down with actual students in the class and talk to them 
about what they thought.
    Then we look at a written feedback form that they provide 
us on what the strengths and weaknesses of the course were from 
individual classes to instructors, for instance. We get at 
things like how should this course be presented. Would this 
class be hosted better in a mobile learning environment? Is it 
best in a residence environment, and that sort of thing.
    We have a very arduous certification program inside of 
TRADOC where we have an accreditation team that visits each one 
of our academies, and takes feedback from the students and 
feedback from the field in a mechanism to look at the academy 
to ensure they are doing the right thing.
    Sergeant Major Camacho sitting behind me is my 
representative on that accreditation team. He physically visits 
our academies, each one of them, looks at their program of 
instruction, and talks to the instructors and their students.
    To go on just a little further on the things that we do, we 
have a survey process that when a student graduates from any 
one of our courses, he has to indicate who his supervisor was 
or currently is. We send a product to that supervisor via the 
Internet, and the supervisor has a requirement to fill out the 
survey, return it to us, and tell him what his customer 
satisfaction--tell us what his customer satisfaction was with 
his soldier when he received him.
    And we do that about the 6-month mark after the course has 
been completed so we can ascertain how the soldiers perform 
back in their unit.
    Lastly, ma'am, all of our leaders, whether the sergeants 
major in the Army, the command sergeants major across the 
force, the general officers, as they visit soldiers and they 
visit units, they provide information back to us on what 
commanders say in the field about the things that they would 
want their soldiers to receive or the things that their 
soldiers are receiving that are working very well.
    We do that in a number of visit kind of methodologies, and 
we also have a group of teams that visits with each unit when 
they come out of theater to assess what their strengths or 
weaknesses were, and all of that information comes back to the 
Army Center for Lessons Learned, that gets distributed to the 
schools and centers to provide an accurate assessment of what 
we need to do better in each one of our schools.
    Mrs. Davis. Is there anything consistently that you find 
that you are falling short on?
    Mr. Sparks. Not consistently, ma'am. There are ideas, you 
know. Recently, we implemented resiliency training at the 
charge of the Chief of Staff. When we go out and query the 
field, they say, ``Yes, you know, that is the right thing to 
do. We should bring a higher level of resiliency training.''
    So we tend to get his concurrence. In some cases there will 
be some adjustment to the battle space that will require us to 
make a degree of adjustment inside of the course.
    But we firmly believe in our Institute and across the Army 
that we should be willing to change immediately. So if we can 
find a specific change for a particular branch of a soldier at 
a particular grade, we will make the adjustment in that course. 
Sometimes those particular suggestions make their way totally 
across the force. But you can be sure we look at each and every 
one of them to make sure that they are provided to the right 
soldier at the right time.
    Mrs. Davis. Thank you. Anything particularly different that 
you would like to add in your assessment? Is it quite different 
in the Navy or the Air Force?
    Mr. Lutterloh. Yes, ma'am. I would say that we are a lot 
similar to the other services, as you have heard. I would say 
that internal to our courses, especially the Senior Enlisted 
Academy, there are assessments done by our instructors.
    And coupled with the War College--the great thing about 
being up there with the War College is we utilize the 
professors at the War College to help our instructional faculty 
at the Senior Enlisted Academy understand the differences 
between training, which they have had a lot of experience in, 
and education, which has been somewhat limited in their 
careers.
    So that seminar style of educational approach and the 
assessments in papers and in projects and in roles in the class 
are something that we focus on.
    Beyond that, what I would say is a core thing that hasn't 
been discussed. Our enlisted board of advisors led by the 
Master Chief Petty Officer of the Navy (MCPON) and all of the 
fleet and force master chiefs are the Chiefs Messes that get 
together and regularly address what gets put forth in our 
enlisted professional military education continuum as well as 
our Senior Enlisted Academy.
    And I don't believe there is any stronger communication 
mechanisms than that Chiefs Mess. It is tremendously valuable 
in the feedback that it provides to our institutions.
    Mrs. Davis. Thank you.
    Mr. Lutterloh. Thank you.
    Mr. Sitterly. Thank you, Mrs. Davis. One area that I think 
that we have done well in recently is on the input side of what 
goes into curriculum through what we call our Air Force 
Learning Council. And because we have captured students in all 
of our PME, there is a tendency for our functional areas to 
want to sort of give input to the curricula, whether it is a 
safety message of the day and so on and so forth.
    So through this learning committee, we now vet every new 
functional input, no matter what it is, to first assess where 
it is that we are teaching it as important--that is, at what 
level are we teaching. Are we teaching it at the cognitive 
domain of knowledge, understanding? Or are we more at the 
affective domain where we are more interested in attitude and 
so on and so forth?
    So that has really helped us to keep the curriculum from 
sort of getting everybody's inputs and making sure that we are 
going back, looking at all of the institutional competencies.
    And then the other thing that I think that we have done 
recently that is very helpful is our just-in-time joint lessons 
learned. And we always have the discussion--Dr. Fenner had the 
discussion when she visited our Barnes Center--is what is the 
difference between education and training, like Mr. Lutterloh 
said.
    And sometimes you need to do some just-in-time training 
that you didn't capture because somebody has come back from an 
AOR [area of responsibility]. And so we have an E-9 shop that 
looks at both Air Force lessons learned and joint lessons 
learned. We have a joint PME, enlisted joint PME committee. And 
we will go and look at them and find out when is the 
appropriate time to put them in, and should we do it in our 
just-in-time training at our Expeditionary Center, or should we 
put it into a PME program.
    Thank you.
    Mrs. Davis. Thank you.
    Dr. Snyder. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    I appreciate everybody's perspective on where you see your 
service branches now with enlisted PME, where the challenges 
are. Let me ask in this context. It seems like to me there are 
a lot of great efforts that are going on out there. I want to 
get you to kind of talk about what additional changes you might 
see in the future.
    And I just put it in perspective in the realm of do you 
think courses maybe need to be shortened or lengthened? I know 
you have probably a valuation process, as some mentioned, with 
your students, but also obviously with the commands that they 
go back to make sure that you are serving their needs.
    Another component there was offering it to more NCOs, maybe 
at an earlier stage, and I think that is a component that is 
interesting, looking how we make sure the scope of education is 
there for NCOs. Looking at a direct link to promotion, is there 
a component there where there should be a direct link to 
promotion? I want to get your thoughts on that.
    Should there also be, as we look at on the officer side, 
should there be a Capstone element there, too, to folks that 
are there at very advanced stages of their careers as an NCO?
    So I just wanted to get it in--just put that in the 
perspective of within that list of things, and you don't have 
to address each one of those, but just looking in the context 
of are there things out there left to be done that we can do 
better?
    And I know each of you have talked a little bit about the 
strengths of your programs, where you see things going, but I 
would like for us to maybe take the next step within those 
contexts and say are there still things that we can do better 
to make sure that we are meeting the needs of our NCOs and 
making sure that they have the best educational opportunity out 
there?
    And the one thing--I would just wax philosophical here for 
a second--one thing that really impressed me was the percentage 
of NCOs in each of the service branches that have either 
bachelors' degrees or advanced degrees. And that to me is very, 
very telling that you have an NCO corps with a strong desire to 
get that advanced element of education.
    So I just want to know are there additional things that we 
can do better, that we can change to make sure that we are 
doing all we can to make sure that our NCO corps is getting 
what they need?
    Colonel Minick. Yes, sir. I guess what I would say from a 
pragmatic view with the op [operations] tempo and what we 
perceive to be the continued ops tempo, we believe we have it 
about right for the duration.
    We understand that adding our senior enlisted course, which 
is on the far end of the continuum, is going to cause another 
education hurdle, but we think it is well worth their time and 
the organization's time. And we are very comfortable with that.
    As you mentioned earlier, we have one course, and that is 
the Advanced Course. It is for our E-7s. It is for our gunnery 
sergeants. That is the only resident course that is a resident 
attendance requirement for promotion. We are currently running 
about 62 percent of the force through that.
    Now, what I will tell you is it is a bit of a math problem. 
You look at time and grade, you look at the amount that we 
promote every year to E-8, and then you look at the 
opportunities to go to school. Every E-7, the target population 
for that Advanced Course, has about 15 opportunities to get to 
school.
    And we have looked at the numbers hard, and we are 
confident that that is a reasonable expectation, and we have 
never had an individual that said, ``I couldn't get there,'' 
and there wasn't a justification to say, ``Well, you could have 
gone at this time.''
    So I do think we have the time right. I do think that for 
us now we are at the Advanced Course we are putting a 
significant marker down. If you want to continue up and be a 
senior enlisted, you are going to go to that resident course.
    But the last thing that I would add is one of the ways we 
are looking to mitigate the quality time when we do get them in 
the resident course is by the prerequisites that we do with the 
new online, which again, we are doing with CDET, College of 
Distance Education and Training, for the Marine Corps.
    So we believe that, you know, through prerequisite work, we 
can get much more effective time when we have them--probably 
work on the lower and cognitive skills, and then when they get 
them together, we are working on the higher end professional 
education skills.
    Mr. Wittman. Mr. Sparks.
    Mr. Sparks. Thank you, sir. That is a great question. The 
first point relative to your comment on college degrees, just 
for a point of reference, 38 percent of the sergeants major 
class that graduated this year graduated with a degree. 
Civilian education is extremely important to the 
noncommissioned officers population of the Army.
    To get it at--I think your first question was attendance. 
We believe in the United States Army that all noncommissioned 
officers will attend every level of the required 
noncommissioned officer education. The way that we go about 
ensuring that attendance is possible is we have looked at 
every--and we have done it for a number of years now--we have 
looked at every possible way to deliver the course and how the 
course could be delivered.
    For instance, since 2008, when we had occasions where 
soldiers had quick turnaround times and were able to come to 
our resident course, in most cases we picked up the resident 
course and actually moved it to the installation. We refer to 
those courses as mobile training teams.
    So our perspective inside of our organization and inside of 
the greater United States Army is that the soldiers--we have to 
determine what the soldiers' needs actually are, and we will 
deliver the education anywhere possible to reach that need.
    Relative to promotion, noncommissioned officer education is 
a requirement for promotion. We continually look at ways and 
how we should deliver that requirement. Should we move it 
earlier in the soldier's learning continuum or in his career 
lifespan? But it is a requirement, and all soldiers must attend 
NCOES.
    The lengths of the courses are something that we look at 
constantly. One of the divisions inside of my organization 
looks at lengths and delivery mechanisms. Every one of our 
military occupational specialties at each particular skill 
level one through five is required to complete a task list of 
the required tasks across the spectrum of the Army for that 
particular soldier in the area of what his requirements of 
learning are.
    We take those tests, and we look at all the ways that we 
can deliver them in an effort to set the course length in the 
right way. In some cases a course may be too short. As we re-
look each one of those MOSs [Military Occupational 
Specialties], we may determine that a course needs to be 
longer. We have just recently done that. It is important to do 
that very frequently, because we don't want to miss the 
opportunity to train a soldier when he has got a short ``boots 
on the ground'' time.
    Technology is an area that we need to constantly improve 
on. The idea that most soldiers today carry a personal device 
that is accessible to the Internet should tell us that there 
are ways that we can get at education that we haven't 
traditionally thought of.
    We have delivered and we do deliver a number of courses 
online, but only if we think that course delivery online is 
representative of the required learning continuum.
    Lastly, sir, we have engaged a process now this year--where 
I really want to be in 2015--at the direction of our commanding 
general, General Dempsey, we are looking hard at what 
technologies we think will be available in 2015, what the young 
learner will expect in 2015, and how we will get it.
    So not only are we engaged every day in what we think our 
courses should look like, we are engaged in the future as well. 
And we want to make sure we got it right.
    Mr. Wittman. Mr. Lutterloh.
    Mr. Lutterloh. Thank you, sir. I agree with my colleagues 
relative to the length of the courses. I think they are about 
right. Our senior enlisted leadership feels they are about 
right. In a pressurized fiscal environment, I think it is what 
we can afford right now, given the value that we see coming out 
of it.
    I appreciate the flexibility that leadership has given us 
relative to policy decisions on mandating enlisted professional 
military education accomplishment prior to advancement. I will 
continue to take a very deliberate approach for that and make 
sure that we balance those requirements across a career and 
that we don't jeopardize anybody's chances for advancement, 
because they may not have the bandwidth available to gain 
access to our courses as an expeditionary force.
    We do believe in the Keystone project, the capstone event 
for the enlisted force. As a matter of fact, Force Snyder, our 
Naval Education and Training Command's Force Master Chief, is 
not here today because he is involved in Keystone. So we are 
very proud of the fact that he is there.
    We do believe that it is a fairly limited event. It should 
be tied to requirements, key positions on joint staffs, and it 
should be provided to highly potential candidates that would 
fill those positions, and Force Snyder is an excellent 
candidate for that. So I think we have got to do that.
    Where I think we have got to focus some attention, though, 
relative to your question, is perhaps on tailoring. We are 
taking advantage of quite a bit of the technology already in 
our courses. What I don't think we are doing quite effectively 
yet is perhaps tailoring some of our instruction.
    For example, specific regional and cultural areas--how 
should we be addressing that and folding it in--not only 
understanding Navy and joint capabilities, warfighting 
capabilities and orders of battle, but also understanding those 
of our international partners a little bit better and perhaps 
threats within regions to which they may be assigned. So some 
continued focus on perhaps some of those aspects would be 
appropriate.
    Thank you.
    Mr. Wittman. Mr. Sitterly.
    Mr. Sitterly. Thank you for the question. I agree. I think 
we have the content and timing about right, or we have the 
processes for review in place where we can adjust those. And 
we, too, require 100 percent attendance at all four levels of 
our PME for promotion. Now, there are some waiver processes in 
place for medical reasons or deployment reasons, but we track 
those to completion as well.
    And we also have some executive level courses for folks who 
are going out to be command chiefs or career field managers and 
so on to sort of go beyond what everybody else gets.
    But I think what keeps me awake at night is our competency 
to employ military capability and from the 2010 Quadrennial 
Defense Review in the building partnership capacity piece. And 
we have some very robust officer programs in our regional 
affairs specialists, our political affairs specialists, FAO 
[foreign affairs officer] programs and so on and so forth. But 
I don't think that is going to get to that mission requirement.
    I think that our enlisted force is going to do more and 
more--they are doing more and more of that. And we have 
recently formed partnerships with eight coalition countries at 
this point, where we have exchange programs with both our 
faculty and instructors, as well as our joint partners.
    But I think we need to do more of that both in the 
interagency and the multinational arena, and I think the 
opportunity is here. I think some of the best relationship 
building is done, you know, with the young airmen, mil-to-mil 
sort of thing in a classroom. So we are going to continue to 
reach out and build that capacity to build partnership within 
our PME programs. And the cultural, cross-cultural capacity 
that that gives us is tremendous.
    So thank you for the question.
    Mr. Wittman. Thank you, Mr. Chairman. Yield back.
    Dr. Snyder. Mr. Sitterly, a couple of times this afternoon 
you mentioned resources as an issue. I think in one context it 
was pushing--in your words--to the left, I think, in the 10-
year range rather than the 12-, 13-year range. You thought it 
would take additional faculty, which required additional 
resources.
    In the grand scheme of the Air Force budget, that must be a 
fairly small amount of money for a concept that we think is the 
essence of the military, which is the people. Why are you 
having problems with resources, if you think that is an 
important part of getting the personnel up to where everyone 
thinks they ought to be?
    Mr. Sitterly. I think us putting together a solid business 
case for the requirement and then picking the right sort of--
does it require additional infrastructure, can we expand upon 
the facilities that we have now? So that burden is on me to put 
together----
    Dr. Snyder. But you haven't actually been turned down on 
anything you asked for?
    Mr. Sitterly. No, sir. In fact, at 1330 today over in the 
building on the other side of the river, we are making our 
pitch to our Force Management and Development Council, so I 
suspect we will be successful, and then it has to get it into 
the budget process. So the burden is on my shoulders, Mr. 
Chairman.
    Dr. Snyder. And the issue you mentioned, the technology, 
because you still send out, mail out a ``box of books'' to 
folks, don't you, and you are trying to get away from that? 
That is also a resource issue so it can all be done----
    Mr. Sitterly. Yes, Mr. Chairman.
    Dr. Snyder. IT [information technology].
    Mr. Sitterly. It certainly is. And we have recently stood 
up the Barnes Center, named after the fourth chief master 
sergeant of the Air Force, in order to synergize all of the 
resources, Community College of the Air Force, all of our 
enlisted PME, our Enlisted Heritage Research Institute, so that 
we can synergize all of our IT systems, our officer systems, 
build upon the same platform.
    So at the same time because our requirements are moving 
quickly and what we are putting into our curriculum is moving 
quickly, the need to be able to build a distance learning 
program and to keep our resident programs current at the same 
time becomes challenging for us.
    Additionally, as we look at some of the issues--irregular 
warfare, you know, cyber--we don't necessarily have the 
expertise on the staff, so we need to look at bringing in 
subject matter experts in order to build both our distance 
learning program and our resident courses.
    So we have acknowledged that. We are updating the ``box of 
books,'' if you will, to make sure that we are meeting our 
educational learning outcomes, which we certainly will, and at 
the same time we are pursuing the distance learning as well.
    Dr. Snyder. Thank you.
    Colonel Minick, I want to follow up with you on this issue 
of the advanced course requirement for promotion of E-7 to E-8. 
And I believe you said that you thought people by the time they 
reached E-7 had had 15 opportunities on average in their career 
to take that. And yet isn't it correct that of those E-7s that 
are eligible for promotion to E-8, almost 30 percent of them 
have not completed the advanced course?
    I mean, regardless of what they might say in some survey, 
you would just think that if I was an E-7--it shows a certain 
commitment to the Marine Corps--I would like to be an E-8, why 
would you have almost 30 percent of the people who would say, 
``No, I know that is required for promotion to E-8, but I am 
not going to take the course.''
    It seems to be inconsistent with human behavior that they 
would pass on an opportunity that would mean more money for 
them, more money for their family, you know, moving up in their 
career. It seems like there--and it may well be ops tempo, sort 
of. It just doesn't seem--I mean, I would be questioning if 
people said, ``No, I am going to pass on this,'' once again, 
because they really don't want to be an E-8. That doesn't make 
sense to me.
    Colonel Minick. Yes, sir. It doesn't make sense to me 
either, but----
    Dr. Snyder. Well, then we are in agreement. I bet there is 
a mistake with the information you have been getting.
    Colonel Minick. No. No, no, the information is accurate. 
What I provided in the pre-brief, we are running about 63 
percent of our E-7s are attending the resident course.
    Now, what you have to consider, and I will look at it from 
an officer's side--I know a number of lieutenant colonels that 
are going to get out at 20 and don't have a desire to be a 
colonel in the Marine Corps. It could be for personal reasons, 
professional reasons.
    I am not saying that we have 30 percent that do that, but 
the data that we provided in the pre-brief is accurate. Now, we 
have only been running the requirement for one year, so we 
believe that, you know, that number will go up, the amount of 
E-7s attending the Advanced Course, because we do believe it is 
important.
    Dr. Snyder. Well, so then, it is not probably fair to those 
folks to say, ``You have had 15 opportunities,'' if they have 
only known for a year that they would--that that requirement 
would count for promotion, because those opportunities would 
have come at times--the overwhelming majority of their career 
when they did not know.
    In fact, it may have meant for them that they would be 
taken from their unit at a time it was deploying or something, 
and they got----
    Colonel Minick. Yes, sir. And what we did is we 
grandfathered that, so----
    Dr. Snyder. Right.
    Colonel Minick [continuing]. If it started. When the clock 
started on the prerequisite part, one, we did 2 years of 
advance notice, and then when we started the clock, it was all 
those people that had 15 opportunities from when the policy 
changed. So we are very comfortable and confident that those 
who want to pursue advancement in the enlisted force and in 
higher education will get the opportunity to do so.
    Dr. Snyder. Generally, how long is somebody in the Marine 
Corps at the time they become an E-7?
    Colonel Minick. It depends on MOSs, sir, because every MOS 
promotes differently. But it is typically right around the 15-
year mark that we are seeing promotion to E-7, E-7 to E-8, so--
--
    Dr. Snyder. From E-7 to E-8.
    Colonel Minick. And then we have--yes, sir--and then we 
have the enlisted force controls, which will--an E-7 can stay 
22 years in the Marine Corps before he is required to get out. 
And I can't answer for you, you know, what percent of our 
enlisted population does not desire to go for E-8. That could 
very well be a metric in there.
    Dr. Snyder. Do any of you have any comment about the Title 
10? I think several services would like to have expanded Title 
10 authority. And I will start with you, Colonel Minick, and 
you all give your opinion. That is actually something that we 
have control over----
    Colonel Minick. Yes, sir.
    Dr. Snyder [continuing]. Because we would have to do it. 
But go ahead.
    Colonel Minick. Thank you for asking, sir. You know, if you 
were to ask me what could I do to help enlisted PME in the 
Marine Corps, I would say Title 10 authority. As you well know, 
it stipulates that Title 10 can be in support of 10-month 
curriculum.
    And we understand the unintended consequences of policy. 
That was to make sure nobody would shorten courses. The problem 
with it for enlisted education in the Marine Corps is our 
curriculum doesn't go 10 months.
    What Title 10 affords the president of Marine Corps 
University, who has Title 10 hiring authority, is that we can 
get that subject matter expert, and we don't have the same--I 
don't want to say constraints, but the same policies that you 
have on the GS [General Services] hiring system, where there is 
merit preference, and you may not be able to get exactly to the 
individual or the cohort that you want to try and hire.
    So, yes, we would welcome any support in getting a change 
to that law, sir.
    Dr. Snyder. Mr. Sparks.
    Mr. Sparks. Yes, sir. Thank you. As I am sure you know, the 
United States Army War College and the Commanding General of 
Staff College both have Title 10 authority. Noncommissioned 
officer education systems that hire civilian employees are, of 
course, Title 5 employees.
    The United States Army Sergeants Major Academy is a 10-
month course, so we have actually begun discussion with 
Department of the Army, and hopefully, as it moves through the 
Department, they will approve it for your review. So we do have 
a course that is represented above a Title 10 length.
    Dr. Snyder. Mr. Lutterloh.
    Mr. Lutterloh. Chairman, thanks for the opportunity to 
comment. I would like to do a little bit further analysis on 
that. I am not sure that we have run into any problems, any 
issues relative to our enlisted professional military education 
pipeline so far with Title 10, so I would like to take that one 
for the record.
    [The information referred to can be found in the Appendix 
on page 95.]
    Dr. Snyder. In fact, I will use that as an opportunity to 
say that if over the next couple of weeks, any of you have 
things that you would like to add or amplify or correct, if you 
will just get it to the staff, and we will make it not only 
part of our education, but also part of the formal written 
record of the hearing.
    So, Mr. Sitterly.
    Mr. Sitterly. Dr. Snyder, thank you for the question. I 
don't have anything specifically. I do know that there is an 
initiative, legislative initiative, out there regarding the 
Community College of the Air Force and expanding that to other 
services.
    I would just ask as we go forward with that, of course, we 
are very proud the Community College of the Air Force has been 
issuing, I think, 350,000 degrees over their lifetime since 
1977, when we started degrees. And so I would just ask that we 
sort of use it as a template and look at the lessons learned as 
we go forward.
    I think if it were to become a Defense-wide program, it 
would probably go from about 300-and-some-thousand people 
enrolled to 1.9 million people enrolled, so we need to look at 
the ramifications of that. I would just ask that we 
deliberately go about that. Thank you, sir.
    Dr. Snyder. I wanted to ask--you all have had association 
with the military for some years now, and it always is an easy 
thing when there is some new topic or some new scandal or 
something to say, ``Oh, we need to include that in the course, 
just include that,'' and as if, ``Oh, let us make it instead of 
a 24-hour day, we now have a 25-hour day, because you just have 
to add something.''
    But we also know that there are things that come along that 
take on more emphasis as society changes and as we learn. One 
of the ones over the last probably couple of decades now has 
been primarily the treatment of women, but really respect for 
each other when it comes to sexual assault and sexual mores.
    Where do those kinds of interpersonal relationships and 
ethical kinds of issues, whether its treatment of each other or 
treatment of your government credit card, what change have you 
seen in the time you have been associated with these programs? 
And are you--is that an ongoing issue with you--or you think 
you are where you ought to be?
    Start with you, Mr. Sitterly.
    Mr. Sitterly. Thank you, Dr. Snyder. In fact, we just came 
back, Chief Master Sergeant of the Air Force Roy and I, from 
the triennial review, basic military training review, and those 
sorts of questions were discussion items that we had.
    I think we are where we always have been, and that is in 
terms of treating people with dignity and respect. Now, how we 
go about the lesson and how, you know, maybe it is treating 
people with dignity and respect today in terms of sexual 
assault versus racial, you know, issues as it was when I went 
through in the 1970s, as it might be suicide awareness and so 
on and so forth.
    But we tend to put those issues, those social issues in 
context throughout all of our PME, insert scenarios but 
building upon respect for people. So I don't think it has 
changed a lot. The subjects just change a little bit as we go 
forward. Thank you, sir.
    Mr. Lutterloh. That is an excellent question, Chairman 
Snyder, and it is something that we have struggled a little bit 
with in the Navy. We have got a corollary program----
    Dr. Snyder. I hear you have some changes coming on.
    Mr. Lutterloh. Yes, sir, we are continually changing that, 
not only the curricula, but what we focus on. And today's focus 
is exactly on some of the topics you mentioned, sexual assault 
and violence, especially with respect to women, suicide and 
suicide prevention, and operational stress control. And there 
is another one that escapes me right at the moment. I will 
think of it in a second.
    We have refocused on our general military training. Instead 
of requiring 12 subjects once a month, we have limited that to 
about 6 very important topics, including the ones I mentioned, 
including alcohol abuse and understanding that drive these 
pertinent issues.
    We focus them, and the beauty about Senior Enlisted 
Academy, the beauty about our enlisted professional military 
continuum, the beauty about our leadership development 
continuum and our officer training continuum is that we are 
able to adjust on the fly and treat these topics as they need 
to be treated.
    So these are some of the ones--sexual assault and violence 
and suicide prevention particularly--that we are dealing with 
today and overall in DOD, but primarily in the Navy. And so we 
will address these topics in the Senior Enlisted Academy. They 
will change over time, I predict, and we have got to be 
flexible enough.
    We have delegated the remainder of the 54 topics or so down 
to the commands. They understand what statutory requirements 
are, what policy requirements are to get those done in required 
timeframes, but we are focused on the ones that are driving key 
issues within the Navy today that can be addressed by 
leadership. Thank you.
    Mr. Sparks. Thank you, sir. I took that as two parts to the 
question. In the first part you mentioned what do we do to 
react to changes and things that come up? And sometimes it 
could be the idea or the opportunity for that sort of to get 
pushed into the institution.
    First, that when it comes to the noncommissioned officer 
corps inside of the United States Army, that is singularly 
within my focus. For an example, if there is an issue that is 
going on today that is deemed critical by the senior leadership 
of the Army, that issue may come up, and we would begin to look 
at it from a number of different perspectives.
    Number one is why did it occur? What education can we 
provide? At what part of that lifelong learning continuum that 
we envelope in the United States Army is that particular 
education given?
    If it is given at a certain point, we may need to take a 
look to evaluate if it needs to be given earlier. Or do we need 
to enrich that education somewhat? Or do we need to reinforce 
that education later on?
    The worst thing that we could do is just take something and 
stick it in and not understand how it is going to unfold later 
on. So we really need to take a very deliberate approach. We do 
that every day. We have done that with topics like resiliency 
training, like prevention of sexual harassment, consideration 
of others, and I could give you more and more.
    But typically, for all those topics or all those topic 
areas, we don't look at those in the United States Army as 
something that we just stick into a course, necessarily.
    We look at what is relative? What is a relative knowledge 
level for a skill level one soldier? And what does he need to 
have? And what can we deliver into his courseware? And then 
when a soldier becomes a skill level two soldier, what kind of 
courseware do we need to deliver to him? So we built up on that 
first appreciation of knowledge.
    And then finally, by the time he reaches our Senior 
Enlisted Academy, which for us is the Sergeants Major Course, 
he has been trained at the executive level, senior enlisted 
leader advising senior officers on ways to encourage or 
discourage performance.
    So at our five skill levels in the United States Army, 
there may be a totally different representation of that 
knowledge or understanding required at that particular course.
    For instance, for us in security, we deliver security 
education in the initial entry training experience. It is a 
unit requirement to be delivered annually. And we reinforce 
that security education in the common core training that occurs 
at the sergeant or staff sergeant level.
    Colonel Minick. Mr. Chairman, we have a program we have 
had--I can't tell you the exact date it started, but it is 
about 8 years old now. But it is Mentors and Violence 
Protection. It is a formalized program we run throughout our 
academies to where we actually contract folks to come out and 
certify our instructors to be able to teach this material.
    And we tie that into, you know, the importance of the 
bystander--not so much the abuser, although that is obviously 
the problem, but to make sure that there is active involvement 
with every Marine in that dynamic.
    One of the things that we have been tracking, like I am 
sure all the services, looking at stress on the force, one of 
the things we haven't seen is any significant increase in that 
area. One incident is too many, but the trend lines have been 
holding.
    The one that has not been holding for the Marine Corps is 
suicide. And this last winter our three-star generals got 
together, and one of the topics was that issue.
    And we don't normally do this. It is unusual, because we 
have a regular formal process on how we adjust curriculum, but 
we decided that we needed to put more suicide prevention, 
particularly into our Sergeants Course. We believe they were 
the closest to the problem, and we have that throughout every 
academy now.
    One of the things we have to balance that we look at as we 
started to change curriculum is focusing not on those annual 
training skills, but trying to continue to focus on the 
professionalism side. This is probably the suicide prevention--
it is one that is a little bit blurred, but probably closer to 
an annual training. We thought it was important enough that we 
put it into the Academy, and it stays there.
    Dr. Snyder. Obviously, you all four are part of very, very 
large organizations, and as you are training in leadership 
skills and how to train one person to lead others in what at 
times are going to be very difficult environments, they also 
are training people and leading people, but they don't have any 
control. They don't do the hiring. I mean, recruiters do the 
hiring.
    You know, we know that clearly some people end up in the 
military that we wish hadn't been there, that have--they are 
sociopaths or, you know, just, I mean, really clearly there are 
some bad actors that shouldn't have come in, and then don't do 
well in a combat situation.
    Has your curriculum evolved over the last years in terms of 
training people to look for men and women who have mental 
health problems, and they have come in with mental health 
problems that we may just need to accept the reality they need 
to not be in the military and certainly don't need to put in 
the situation of life and death decision-making in a combat 
zone?
    Colonel Minick.
    Colonel Minick. Yes, sir. Thank you for the question. 
Combat Operational Stress Controls is a module that we put 
together a year ago, and it is going to be progressive across 
the continuum. I would tell you that it focuses mainly on that 
individual that is struggling with PTSD [Post Traumatic Stress 
Disorder] or is having the dynamics of the stress of either ops 
tempo or a combat situation.
    But, you know, we have put that into our curriculum. We 
will continue to grow it. Does it specifically focus on someone 
that may be suffering from some type of mental instability? I 
would say no. It focuses more on that individual that might be 
hurting from operational tempo, sir.
    Mr. Sparks. Sir, thank you for the question. I think that 
that is a system in the Army that really begins at the initial 
entry phase when soldiers are paired up with a buddy or wingman 
that would sort of progress through with him.
    The reason I bring that up is because it is important to 
understand the Army operates as teams. And even if it is a two-
man team, where one man is always assessing another man to get 
an idea of how he is doing. Our men and women in uniform within 
the United States Army should feel like they have always got 
someone to turn to.
    The way we go about that in professional military education 
is we begin with our very earliest course, the Warrior Leader 
Course that is designed to move a soldier from the grade of 
specialist or E-4 to sergeant.
    Inside of that course, we devote a lot of time to 
individual counseling, where soldiers sit down one-on-one, do 
mock sessions, learn all of the sort of junior leader 
attributes to help counsel their soldiers. And one would hope 
that initially they would find anything that they thought to be 
a problem inside of those sessions so they could report them to 
more senior levels of leadership.
    In addition to that, the chief of staff of the army has 
directed resiliency training. There are many blocks of 
resiliency training that get to how soldiers are feeling, how 
soldiers are reacting to incidents, how soldiers would react to 
an incident.
    So I think within the spectrum of professional military 
education for the Army, we have been at it for quite some time 
through leadership and counseling skills. We are redoubling 
those efforts with our resiliency training, and we are going to 
continue to employ characteristics like our lifelong learning 
continuum to look at ways to supplement that training later on. 
We believe in our Structured Self-Development Program that we 
may find ourselves requiring some additional education as we 
move through that continuum.
    And lastly, sir, we spent great effort to look at how 
higher level civilian institutions like colleges and 
universities are going about that education. And we have done 
some work with the University of Pennsylvania to define how to 
employ and how to assess resiliency skills.
    Mr. Lutterloh. Thank you for the question. I would agree 
with my colleagues and add a couple of things. Number one, 
recruiting and retention are at record levels, no doubt 
affected by the economy. But our force is as highly qualified 
as ever before in history. Our delayed entry program quarters 
are completely filled. We may have a few issues in a couple of 
niche areas--medical corps as an example--tough to find the 
right kinds of doctors all the time.
    But our training continuums, whether it be the leadership 
continuum across the enlisted ranks, whether it be the command 
leadership school for all officers or our chiefs of the boat 
and command master chiefs, whether it be the Senior Enlisted 
Academy, whether it be specific initiatives relative to 
resiliency training and operational stress control, we focus on 
these aspects--these very aspects.
    A lot of it has to do with counseling. Our covenant 
counseling that is provided by our Chiefs Mess to all of our 
enlisted sailors focuses very closely on some of these 
attributes that you describe. Thank you.
    Mr. Sitterly. Thank you, Dr. Snyder. We spend a lot of 
attention training our military training instructors and some 
of our seasoned instructors, the people that will see primarily 
the new recruits, on what to look for behaviorally. In terms of 
the curriculum, the focus is on referral resources and being 
able to refer the airman to those medical facilities or to a 
community action situation.
    We also have a formal ``wingman concept'' in the Air Force. 
For instance, with our suicide prevention program, the Chief 
just directed a half-day stand down to focus on suicide 
awareness throughout the Air Force, so every agency, every wing 
did that. We brought in our expertise from our medical 
services, from our community services to make sure that 
supervisors understood what resources were available to 
identify people that needed that assistance as well. Thank you.
    Dr. Snyder. I wanted to ask--the issue has come up before 
the subcommittee and before the Congress, the whole broad topic 
of foreign language skills and training folks to navigate in 
cultures other than their own. That is really not what you all 
have been talking about today. Where do you see that whole 
topic fitting in to what you all do?
    Colonel Minick. What we have done throughout, sir, is we 
have threaded it throughout the curriculum when we talk about 
culture and we talk about understanding of the environment, so 
do we put together foreign language skills? No. But it is more 
along the lines of a cultural understanding throughout.
    On the officer side there is survival language skills at 
the Command and Staff College in EWS [Expeditionary Warfare 
School], but because of the short duration of the enlisted 
courses, we do not have any type of language beyond cultural 
understanding and the importance of it in an asymmetric hybrid 
fight.
    Mr. Sparks. Thank you, sir. Obviously, with the number of 
soldiers deployed from the United States Army, we require a 
degree of cultural awareness sorts of training. In professional 
military education, it is embedded throughout our courses.
    Additionally, the commanding general of Training and 
Doctrine Command, General Dempsey, has instituted a culture and 
language study that is completed with recommendations. In my 
Institute, for instance, I will gain a culture and language 
expert that will continue to look at those programs to ensure 
that we have got them right.
    We have a number of schools and centers inside of the 
United States Army that are led by commanding generals that are 
experts in each one of their branch and proficiency areas. In 
most cases, cultural awareness training is determined by what 
are the requirements for that particular branch and soldier and 
particular theater of operation. So the long answer to the 
culture question is yes, we have it embedded in our training.
    We are continuing to look at language training as well. We 
are not certain that there is a place at this point in 
professional military education for language training for 
sergeants. We simply do not know, but we are continuing to 
evaluate that possibility, with the understanding of, if it 
becomes a necessity, how we would apply it inside of our PME 
system.
    Dr. Snyder. I can understand how you might have concluded 
it is not a necessity. Whether it would be a helpful attribute, 
though, that would be a different story. There certainly have 
been an abundance of examples of some extraordinary positive 
things that have occurred because of somebody's ability to 
speak Arabic or Japanese or something like that.
    Now, is it worth the investment of time to get, you know, a 
significant portion of E-4s or E-5s or NCOs speaking languages? 
That is a different topic. But it seems like it would be a very 
positive attribute.
    I think we were talking about our friend, Jim Lively, who 
was able to--was my Marine fellow a couple of cycles ago, I 
think, who was able to go out with Iraqi units without an 
interpreter because of his Arabic skills that he picked up 
outside of the military.
    Mr. Sparks. Yes, sir, if I may, the necessity for the 
language training I know from myself from personal deployments 
in Iraq that it is very helpful. I would not in any way believe 
that it is not a value.
    Relative to the professional military education system, I 
am just simply not certain if it should be placed inside of 
that system. I am sure you are well aware that the United 
States Army has many language programs, and all of our soldiers 
in pre-deployment training go through language exercises for 
terms and things like that that they may need inside of their 
area of operation.
    I also would submit that we have a very robust program out 
at Monterey that when the United States Army relative to 
deployments feels that we need a higher level of specificity in 
a language, that we are able to get that sort of training if we 
need to. But I think we will continue to look at it from an 
all-soldier, all-hands professional military education 
perspective.
    Dr. Snyder. Yes. Well, I have been asking for probably a 
decade now with very poor results, but I have resisted the 
temptation to try to impose something, that I have always 
thought foreign language skills should begin in boot camp, 
where again, it is supposing a 25-hour instead of a 24-hour 
day, but you would end up with a group of people who had some 
minimal exposure to it, and you would stumble onto those people 
who really have some aptitude for it.
    I just think there are too many examples of extraordinary 
things that have happened in combat with people who had 
language skills that weren't really required to do so. Probably 
the most----
    What was the fellow's name, Lorry? Gabaldon?
    Gabaldon. You may be familiar with him from World War II, 
who grew up with a bunch of Japanese kids in California and was 
in--I think he was a Marine, wasn't he, Colonel?
    Colonel Minick. Yes, sir.
    Dr. Snyder. And----
    Colonel Minick. Pied Piper of Saipan.
    Dr. Snyder. Yes, and he would sneak out away from his unit 
on his own, because he just didn't like to see all these 
Japanese soldiers getting killed, and in Japanese he would--I 
think he basically said, ``If you don't surrender, we are going 
to blow up your cave'' or something, but he was probably a 
little more moderate in tone than that, but he was able to do 
it in Japanese, and even stumbled into a regiment one day and 
had--I don't know--600 or 700 surrender at one time after he 
negotiated in Japanese with the unit.
    And remember, this is at a time when the mystique amongst 
the military was a Japanese soldier would never surrender.
    But you think about how many Marines' lives were saved 
because an additional 800 or 900 Japanese troops did not have 
to be killed or captured, and yet that was a kid who learned 
those skills by picking fruit, I think, in California when he 
was in high school.
    I don't think I have any further questions. I appreciate 
you all's attentiveness today. I have found these materials 
hard for me to get a handle on. I mean, I take your statements 
at what they say.
    We have had the staff go out. I don't know if I have a 
sense yet of if all the schools should be getting A-pluses or 
B-minuses or C-pluses, but I certainly give you all A-plus for 
effort and commitment to the program.
    I noticed the topic that Mr. Skelton is interested in and 
has been for years, and we have had some discussions, and I 
feel a bit like we neglected you all. And perhaps your resource 
issue wouldn't be such a big one, if we had been paying a 
little bit more attention to enlisted PME through the years. 
And I think you will see this committee do that under Mr. 
Skelton's leadership.
    So we appreciate you being here today. I certainly 
appreciate your service. And we are adjourned.
    [Whereupon, at 3:19 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             July 28, 2010

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 28, 2010

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T1633.001
    
    [GRAPHIC] [TIFF OMITTED] T1633.002
    
    [GRAPHIC] [TIFF OMITTED] T1633.003
    
    [GRAPHIC] [TIFF OMITTED] T1633.004
    
    [GRAPHIC] [TIFF OMITTED] T1633.005
    
    [GRAPHIC] [TIFF OMITTED] T1633.006
    
    [GRAPHIC] [TIFF OMITTED] T1633.007
    
    [GRAPHIC] [TIFF OMITTED] T1633.008
    
    [GRAPHIC] [TIFF OMITTED] T1633.009
    
    [GRAPHIC] [TIFF OMITTED] T1633.010
    
    [GRAPHIC] [TIFF OMITTED] T1633.011
    
    [GRAPHIC] [TIFF OMITTED] T1633.012
    
    [GRAPHIC] [TIFF OMITTED] T1633.013
    
    [GRAPHIC] [TIFF OMITTED] T1633.014
    
    [GRAPHIC] [TIFF OMITTED] T1633.015
    
    [GRAPHIC] [TIFF OMITTED] T1633.016
    
    [GRAPHIC] [TIFF OMITTED] T1633.017
    
    [GRAPHIC] [TIFF OMITTED] T1633.018
    
    [GRAPHIC] [TIFF OMITTED] T1633.019
    
    [GRAPHIC] [TIFF OMITTED] T1633.020
    
    [GRAPHIC] [TIFF OMITTED] T1633.021
    
    [GRAPHIC] [TIFF OMITTED] T1633.022
    
    [GRAPHIC] [TIFF OMITTED] T1633.023
    
    [GRAPHIC] [TIFF OMITTED] T1633.024
    
    [GRAPHIC] [TIFF OMITTED] T1633.025
    
     [GRAPHIC] [TIFF OMITTED] T1633.026
    
    [GRAPHIC] [TIFF OMITTED] T1633.027
    
    [GRAPHIC] [TIFF OMITTED] T1633.028
    
    [GRAPHIC] [TIFF OMITTED] T1633.029
    
    [GRAPHIC] [TIFF OMITTED] T1633.030
    
    [GRAPHIC] [TIFF OMITTED] T1633.031
    
    [GRAPHIC] [TIFF OMITTED] T1633.032
    
    [GRAPHIC] [TIFF OMITTED] T1633.033
    
    [GRAPHIC] [TIFF OMITTED] T1633.034
    
    [GRAPHIC] [TIFF OMITTED] T1633.035
    
    [GRAPHIC] [TIFF OMITTED] T1633.036
    
    [GRAPHIC] [TIFF OMITTED] T1633.037
    
    [GRAPHIC] [TIFF OMITTED] T1633.038
    
    [GRAPHIC] [TIFF OMITTED] T1633.039
    
    [GRAPHIC] [TIFF OMITTED] T1633.040
    
    [GRAPHIC] [TIFF OMITTED] T1633.041
    
    [GRAPHIC] [TIFF OMITTED] T1633.042
    
    [GRAPHIC] [TIFF OMITTED] T1633.043
    
    [GRAPHIC] [TIFF OMITTED] T1633.044
    
    [GRAPHIC] [TIFF OMITTED] T1633.045
    
    [GRAPHIC] [TIFF OMITTED] T1633.046
    
    [GRAPHIC] [TIFF OMITTED] T1633.047
    
    [GRAPHIC] [TIFF OMITTED] T1633.048
    
    [GRAPHIC] [TIFF OMITTED] T1633.049
    
    [GRAPHIC] [TIFF OMITTED] T1633.050
    
    [GRAPHIC] [TIFF OMITTED] T1633.051
    
    [GRAPHIC] [TIFF OMITTED] T1633.052
    
    [GRAPHIC] [TIFF OMITTED] T1633.053
    
    [GRAPHIC] [TIFF OMITTED] T1633.054
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             July 28, 2010

=======================================================================

      
              RESPONSE TO QUESTION SUBMITTED BY DR. SNYDER

    Mr. Lutterloh. The Senior Enlisted Academy is under the purview of 
and co-located with the Naval War College. The Senior Enlisted Academy 
currently has active duty military faculty. The Naval War College 
provides additional faculty support as required. Accordingly, the need 
for Title 10 hiring flexibility for classes less than ten months in 
length, such as those at the Senior Enlisted Academy, is not currently 
an issue for Navy. However, we do support such flexibility to employ 
civilian faculty members as future needs arise. [See page 27.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             July 28, 2010

=======================================================================

      
                   QUESTIONS SUBMITTED BY DR. SNYDER

    Dr. Snyder. When we studied Officer PME, we discovered a pretty big 
disconnect between the personnel systems and the PME systems. 
Specifically, we addressed who gets selected to attend and when, what 
course they go to, and where they go afterward as far as putting the 
education to good use. Does the enlisted PME system have similar 
challenges?
    Colonel Minick. The construct of EPME is different than that for 
OPME in that the EPME courses are temporary additional duty (TAD) 
whereas the OPME courses are permanent change of station (PCS) courses. 
This is possible due to the shorter duration of the EPME courses. This 
permits more flexibility in scheduling Marines to attend courses. The 
more frequent shorter duration also mean a higher percentage of 
enlisted Marines are afforded resident EPME seats. Also, quotas for the 
EPME courses are distributed to the operating forces where unit 
commanders make the selections rather than the board selection process 
administered by Manpower and Reserve Affairs for OPME. Therefore, we do 
not face the challenges faced on the OPME side concerning selection, 
attendance, and post-PME utilization.
    Dr. Snyder. Virtually all the officer PME education venues offer a 
master's degree along with PME. Other than the Community College of the 
Air Force and the College of the American Soldier programs, does your 
Service's enlisted PME system provide for degrees or accredited college 
hours to apply to a degree? How important (or is it required) for 
enlisted members to have an Associate's Degree, Bachelor's Degree, or 
Master's Degree at some point in their career for promotion?
    Colonel Minick. It is not required for an enlisted Marine to have a 
degree for promotion. It should also be pointed out, that while some 
resident OPME schools are accredited and do grant degrees, those 
degrees are not required for promotion and Marine OPME distance 
education programs are not accredited to grant degrees. Although our 
EPME schools are not accredited to grant degrees, our courses have been 
validated by the American Council on Education (ACE) and graduates can 
receive transcripts through the Sailor/Marine American Council on 
Education Registry (SMART). Students may use these credit hours to 
apply for degrees at accredited colleges. It is not feasible to grant 
enlisted Marines a degree based solely on PME curricula due to the 
relative short duration of EPME courses. However, there are educational 
programs outside of the purview of EPME, such as the SNCO Degree 
Completion Program that allow enlisted Marines to earn bachelor's 
degrees in specific fields. Much like similar officer advanced degree 
programs, these programs are not considered PME. The Marine Corps is 
also currently studying the benefits of a program similar to the 
officer Advanced Degree Program (ADP) where senior enlisted Marines who 
already have a bachelor's degree could obtain master's degrees in 
certain fields.
    Dr. Snyder. How is the Reserve Component (RC) included in your 
enlisted PME program? Do reservists and Guardsmen have the opportunity 
to attend or take the PME they require for promotion? How has the 
transition from a strategic to an operational reserve (with increased 
deployments and length of deployments) affected RC opportunities to 
complete EPME?
    Colonel Minick. The Reserve Component has separate two-week long 
resident Sergeants, Career (Staff Sgt) and Advanced (Gunnery Sergeant) 
Courses conducted at the Staff NCO Academy in Quantico. Each summer, 
one Advanced, one Career, and two Sergeants Courses are conducted. The 
opportunity does exist for Reservists to attend these courses. Since 
2005, the number of Reserve students has increased by 61 percent. 
Marine Forces Reserves reports that the transition from Strategic to 
Operational has created a significant gap with their senior enlisted 
leaders. Because of this, they believe they now have a backlog of 
enlisted leaders who need to complete PME and be eligible for selection 
to the next higher grade. Enlisted PME will be meeting with the Marine 
Forces Reserve G-3 to discuss increasing courses of action to increase 
both the number of courses and locations for resident Reserve Courses.
    Dr. Snyder. There is quite a disparity between the length of time 
an officer spends in a career on education and the time an enlisted 
person spends on education. Can you explain this disparity? Do the 
Services need to invest more time and money in NCO education? Why or 
why not? Where would you focus any increases?
    Colonel Minick. While there is a disparity between the amount of 
time that an enlisted Marine spends at PME schools compared to what 
officers, OPME courses are episodic whereas EPME courses are continual 
during a career. We believe the duration is appropriate due to the 
increased frequency of our courses and the additionally time our 
enlisted Marines spend in MOS specific curriculum. The amount of MOS 
curriculum varies by occupational field.
    The Marine Corps is continually investing more time and money in 
NCO education. The President of Marine Corps University has made EPME 
his number one priority; all resident and non-resident EPME courses are 
undergoing major changes to construct and curricula. In the past five 
years, the staff of the Enlisted PME has increased from just three 
Marines to nearly 40 Marines and civilians, and we have improved the 
content while simultaneously adding to expanding the EPME continuum on 
both directions--in the form of a command-sponsored Corporals Course 
and a Senior Enlisted PME Course for master sergeants, first sergeants, 
sergeants major and master gunnery sergeants. The non-resident courses 
are becoming more robust as well with the College of Distance Education 
and Training taking on the task of distance learning. The biggest 
change will be the creation of a seminar Career Course--similar to the 
officer non-resident PME courses. The EPME budget has increased from 
just $10,500 in 2005 to more than $2.67 million in FY 2011.
    Dr. Snyder. In exploring the most effective organizational 
structures we observed that two of you (Navy and Army) have NCO leaders 
of their NCO schools and two of you have colonels as leaders (Marine 
Corps and Air Force). Can each of you address why your school systems 
are organized the way they are and if they/you get enough support from 
your higher headquarters. For instance, the Navy (Naval War College), 
Air Force (Air University), and Marine Corps (Marine Corps University) 
schools are subordinated to your officer universities or colleges? 
[Note: Army enlisted education is directed by the Institute at Training 
and Doctrine Command rather than Army War College or Command and 
General Staff School.]

    a.  How should PME commanders, commandants, and presidents be 
chosen? What are the plusses and minuses of having enlisted leadership 
at the enlisted schools? Officer leadership?

    Colonel Minick. Although the director of the overall EPME program 
is a colonel, the Academies are indeed run by senior SNCOs, usually a 
sergeant major. Rather than being subordinate to the officer colleges, 
the EPME directorate has equal standing to the directors of the officer 
PME schools (Expeditionary Warfare School, Command and Staff College, 
the Marine Corps War College, and the School of Advanced Warfighting) 
within the Marine Corps University. We view the Marine Corps model as 
the best of both worlds with enlisted leadership at the Academies and 
an officer at EPME. Rather than segregating officer and enlisted PME, 
we are working on integrating and melding the two to ensure the two 
groups have commonalities and feedback from the two groups. Doing so 
prevents ``groupthink'' and allows for new ideas and collaboration.
    Dr. Snyder. Would you be in favor of a Goldwater-Nichols Reform for 
Enlisted personnel management and PME? Given that calls for jointness 
and ``whole of government approaches'' from Congress and the Executive 
Branch have been increasing, how extensively should the EPME system be 
more consciously shifting its sights to the joint, interagency, and 
multinational realms?

    a.  Is joint, interagency, and multinational integration curriculum 
being extended down to the enlisted ranks, in a conscious and 
programmed way, given that they find themselves increasingly in that 
environment whether that is in engagement, combat, or reconstruction 
and stabilization operations?

    Colonel Minick. EPME curriculum currently has the right mix of 
joint, interagency, and multinational instruction (JIM). As with OPME, 
the amount of PME (and jointness in particular) should increase as 
Marines increase in rank. The EPME processes are coming more in line 
with the OPME processes and there are appropriate Joint Learning Areas 
(JLAs) in the Enlisted Professional Military Educations Policy (EPMEP). 
The EPMEP rightfully recognizes that lower levels of PME should focus 
on service specific education. Each service has unique PME requirements 
for junior service members. The EPMEP and the associated councils 
ensure that EPME curricula maintains appropriate levels of jointness.
    Dr. Snyder. Does diversity matter in the assignment of faculty and 
staff within EPME? How can EPME institutions increase the diversity of 
their leadership and faculty?
    Colonel Minick. Diversity does matter in the assignment of faculty 
and staff within EPME. The faculty and staff should mirror the enlisted 
population as a whole, and not just by race and gender. When we recruit 
for positions within the academies, we also want diversity in military 
occupational specialties to ensure that we are not too ground or too 
aviation heavy. Further, the criteria we have identified as the most 
desirable traits for our faculty include operational experience, 
education, previous teaching or curriculum development experience, and 
superior performance. While we do not formally track race and gender; 
however, we work with Manpower Enlisted Assignments to recruit 
potential faculty advisors, as needed, to attain an equitable mix of 
races, gender, B Billet, operational and MOS diversity at all 
academies.
    Dr. Snyder. How much of your EPME curriculum is focused on critical 
thinking, communication, and resource management? Should emphasis in 
any or all of these areas be increased? At what levels?
    Colonel Minick. Critical thinking and communication and resource 
management are woven throughout the EPME curriculum. We assess each 
learning outcome to ensure that they included in both the content and 
the evaluation. The ability of Marines to think critically, to be agile 
and adaptive in rapidly changing environs is critical in current 
contingency operations in which the enemy is also evolving. We are 
currently studying ways to further increase these skills for both our 
faculty advisors and our students; an OSD-funded study is exploring 
ways to enhance adaptability in our curriculum. Communication skills 
continue to be a top priority for us. We will be pursuing a POM 
initiative to place communications experts in each of our academies so 
that we can improve oral and written communication.
    Dr. Snyder. Should senior NCOs attend officer PME courses?
    Colonel Minick. Yes, senior NCOs should be able to attend officer 
PME courses space permitting. Senior NCOs are eligible to enroll in 
appropriate Marine Corps officer distance education programs if they 
have completed the PME requirements for their ranks. For resident 
schools, there are not enough seats to accommodate all officers, so it 
would not be feasible to offer seats to enlisted Marines.
    Dr. Snyder. I understand all the other Services offer each other 
exchange instructors which really advances jointness except that the 
Marine Corps has not decided to send an exchange instructor to the Navy 
senior enlisted course. Given that the Marine Corps and Navy interact 
so much on ships and on shore, can you explain that decision and if 
it's likely to change?
    Colonel Minick. We currently send a small number of Marine students 
to attend the Navy Senior Enlisted Academy (Navy SEA) and Army Sergeant 
Major Academy (USASMA). In addition, we are developing plans to send 
Marines to attend the Air Force Senior SNCO Academy (AFSSNCOA). 
Questions/requests have surfaced in the past, through unofficial 
channels, from the Navy SEA and USASMA regarding the possibility of 
Marines being assigned as instructors at their respective school 
houses. As a result of our plans to have Marines attend the AFSSNCOA in 
the near future, questions have also surfaced about future 
opportunities for Marines to be assigned as instructors at that school 
house. While we would most welcome an instructor exchange with any of 
these school houses, formal manpower requests of this nature are filled 
by our Manpower and Reserve Affairs branch.
    Dr. Snyder. Do you have enough seats to get everyone who requires a 
course for promotion through and if not, with the pace of deployments 
and opstempo do you have a waiver system?

    a.  Does the waiver system work, not to exempt personnel from 
school, but to get it for them as soon as they're able to go, and not 
to disadvantage them for promotion?

    Colonel Minick. The only resident course required for promotion in 
the enlisted ranks is the Advanced Course which is required for 
promotion from gunnery sergeant to first sergeant or master sergeant. 
We do have enough seats for every gunnery sergeant to attend the 
Resident Advanced Course. There are a total of 1,915 seats available in 
19 courses that begin roughly every eight weeks. In FY 2010, 1,855 
Marines were selected for promotion to the rank of gunnery sergeants, 
so there are clearly enough seats. There is not a waiver system in 
place for attendance at the Advanced Course due to deployments/
operational tempo. We are currently reviewing whether a waiver or a 
board precept should be adopted. It will need to be vetted with the 
Marine Corps Promotion Branch.
    Dr. Snyder. When we studied Officer PME, we discovered a pretty big 
disconnect between the personnel systems and the PME systems. 
Specifically, we addressed who gets selected to attend and when, what 
course they go to, and where they go afterward as far as putting the 
education to good use. Does the enlisted PME system have similar 
challenges?
    Mr. Sparks. A significant asymmetrical advantage we have over our 
enemies has been the quality of our leaders. This advantage is a result 
of our institutional commitment to leader development. The Army's 
enlisted PME is the Noncommissioned Officer Education System (NCOES). 
It is designed to prepare NCOs to lead and train Soldiers who work and 
fight under their direct leadership, and to assist their assigned 
leaders to execute unit missions. Ideally, NCOES and NCO promotions 
should be sequential and progressive. Although currently challenged, 
NCOES remains sequentially linked to NCO promotions and we continue 
with our commitment to ensure our systems and programs develop leaders 
for the 21st Century. Generally, selection of Soldiers to attend NCOES 
is based on both their availability and a unique developmental career 
map that varies depending on each Soldier's Military Occupational 
Specialty (MOS). The training process for the NCO starts with the 
basic, branch-immaterial, leadership training stage and continues in 
schools through the basic, branch-specific level; advanced, branch-
specific level; and senior, branch-immaterial level. Each course is 
designed to be delivered prior to the Soldier being promoted and 
assuming the duties required of the next rank.
    The initial course a Soldier attends occurs on average within 36 to 
48 months of service or when they become Specialist (SPC/E4) promotable 
although highly motivated Privates First Class identified by their 
leadership as future leaders and is the Warrior Leader Course (WLC). 
Due to the high operational rotation of previous years, Sergeants 
(SGTs/E5) and Staff Sergeants (SSG/E6) who are promoted while deployed 
also attend the course. This course is a branch-immaterial, field-
oriented leadership course built on warrior leader tasks. The WLC 
trains Soldiers at NCO Academies throughout the Army and focuses on 
values, attributes, leader skills, and actions needed to lead team/
squad size units and serves as the critical institutional course for 
making a transformation from Soldier to NCO.
    The next level of PME an NCO will attend occurs on average at the 
five to seven year time in service mark and is the Advanced Leader 
Course (ALC). This course focuses on leadership and technical skills 
required to prepare Soldiers to effectively lead squad/platoon size 
units. The ALC is delivered in two phases and consists of a 90-day, 
highly facilitated, web-based common core program that teaches the 
theories and principles of battle-focused common core training, 
leadership, and war fighting skills required to lead a squad-sized 
element in combat. The course also includes ``hands-on'' performance-
oriented technical resident training specific to the Soldier's MOS. 
Although the course is a prerequisite for selection to Sergeant First 
Class (SFC/E7), due to the operational environment, select Soldiers 
(who are or have recently deployed) may end up attending the course 
after having already been promoted or selected for promotion to SFC.
    Between the ten to fifteen year time in service mark, an NCO will 
be scheduled for and attend, the Senior Leader Course (SLC). This 
course, like the preceding ALC course is a branch-specific course that 
provides an opportunity for Soldiers selected for promotion to SFC to 
acquire the leader, technical, and tactical skills, knowledge, and 
experience needed to lead platoon/company size units. Although the 
course is a prerequisite for selection to Master Sergeant (MSG/E8), due 
to the operational environment, select Soldiers (who are or have 
recently deployed) may end up attending the course after having already 
been promoted or selected for promotion to MSG.
    The final level of enlisted PME is the Sergeants Major Course 
(SMC); the capstone of enlisted training for NCOs. It prepares NCOs for 
both troop and staff assignments. This course is task based and 
performance oriented and focuses on leadership, combat operations, 
sustainment operations, team building, communication skills, training 
management, and professional development electives. It prepares the NCO 
for responsibility at the Battalion and Brigade level. The Army selects 
eligible MSG to attend the SMC for the purpose of promotion to Sergeant 
Major (SGM/E9).
    Available inventory, Army requirements, and priorities established 
by HQDA to meet Army readiness drives assignments of the enlisted 
force. The Proponent for each Career Management Field provides a 
professional developmental timeline designed to maximize a Soldier's 
skills in both operational and generating force assignments while 
concurrently establishing an occupational/leader development career map 
for Soldiers, leaders, and personnel managers to use to shape the NCO's 
professional development. The Enlisted Personnel Management System has 
a requirement to resource both operational and institutional 
assignments with the best-qualified, available Soldiers and NCOs. 
Operational assignments are based on a Soldier's MOS and specialized 
skills and, even with the high operational tempo in recent years, the 
Army continues to leverage operational experience in special duty 
assignments such as Drill Sergeant/AIT Platoon Sergeant, Recruiter, 
Active/Reserve Component support, and Observer/Controller.
    Dr. Snyder. Virtually all the officer PME education venues offer a 
master's degree along with PME. Other than the Community College of the 
Air Force and the College of the American Soldier programs, does your 
Service's enlisted PME system provide for degrees or accredited college 
hours to apply to a degree? How important (or is it required) for 
enlisted members to have an Associate's Degree, Bachelor's Degree, or 
Master's Degree at some point in their career for promotion?
    Mr. Sparks. In today's operational Army, it is extremely critical 
for enlisted Soldiers to achieve their educational goals. Our 
Educational programs enhance mission readiness, contribute to 
recruiting, assist in retention and support the career transitions of 
enlisted Soldiers. Traditional NCO roles are becoming more complex with 
integrating information, resources, and understanding strategic 
implications of tactical decisions. The Army requires well-trained, 
educated and professional noncommissioned officers prepared to meet 
current and future leadership, managerial and technological challenges 
of an increasingly sophisticated, complex and expeditionary Army. We 
believe personal and professional growth through collegiate programs is 
essential and beneficial to the Army mission, enlisted force 
development and the nation.
    The Army maximizes the utilization of the American Council on 
Education College Credit Recommendation Service whereas, a team of 
faculty evaluators from relevant academic disciplines review Army 
courses, and if appropriate, make recommendations for the amount of 
college credit they may be equivalent to for transfer into degree 
programs. The Army Career Degrees (ACD) are occupation-based associate- 
and bachelor-level college degrees that uniquely relate to MOS skills, 
contain specific college courses that match MOS/CMF competencies, and 
maximize credit for military experience and training in order to 
minimize additional college study.
    CAS approach to tying NCOES Courses accreditation with specific 
degree requirements allows a Soldier to quickly see what NCOES courses 
will transfer as equivalent credit at any point in his or her career 
from basic training through the Sergeant Major Course. This streamlines 
degree completion by listing precisely what the college will grant for 
each credit source, and provides a list of other guaranteed ways to 
meet degree requirements. By linking civilian education to military 
training, the Army will provide an optimum balance of training and 
education that accelerates the development of adaptive and innovative 
leaders. Education, whether PME or Civilian Education provides the 
tools leaders require has they move forward in their career. We will 
continue to assess new programs and to determine methods to infuse 
civilian education into our PME. We should approach education for our 
soldiers from the perspective of what is best for our NCO leaders. 
Possibly, a Civilian College course may be more advantageous than a 
course presented in our NCOES construct.
    Civilian education and a military profession are mutually 
supporting. Many self-development activities recommended in 
professional development career maps come from programs and services 
offered through the Army Continuing Education System (ACES) which 
operates education and learning centers throughout the Army. College 
level courses are available through installation education centers who 
work with participating colleges to provide on-post programs that lead 
to award of a degree. Many academic institutions take part in the 
Service Members Opportunity Army Degree (SOCAD) program, which 
guarantees Soldiers' transfer of credits and acceptance of 
nontraditional credits such as military experience towards degree 
completion. NCO developmental career maps recommend undergraduate 
degree completion but the Army does not required degree completion as a 
promotion eligibility requirement. Because the quality of our Army's 
NCO Corps is extremely high, selection for promotion is highly 
competitive. In the promotion selection process, the pursuit of 
civilian education above the high school level concurrent with military 
duty is indicative of dedication to self-improvement, effective time 
management, and potential for academic success.
    Dr. Snyder. How is the Reserve Component (RC) included in your 
enlisted PME program? Do reservists and Guardsmen have the opportunity 
to attend or take the PME they require for promotion? How has the 
transition from a strategic to an operational reserve (with increased 
deployments and length of deployments) affected RC opportunities to 
complete EPME?
    Mr. Sparks. PME for the Army Reserve Component (RC) has matured and 
transformed along with the PME provided the Active Component (AC). Both 
RC and AC use the same Warrior Leader Course (formerly the Primary 
Leader Development Course) program of instruction, with the AC 
executing over a longer period and the RC executing in their 
traditional 15 day format. Because of the operations tempo everyone has 
been using the 15 day format. A new Warrior Leader Course was developed 
to provide better educational outcomes across the force and will begin 
1 October 10. Initially, the new course will be executed in 17 days in 
the AC and 15 days for the RC, but the RC stands ready to adjust to the 
17 format when resources become available.
    For NCOES requirements after WLC, it is broken up into two phases, 
a common core and a technical phase developed by a Soldiers proponent. 
Soon, all Soldiers regardless of component, will take the web based, 
highly facilitated, Advanced Leader Course Common Core, with the 
resident RC format being eliminated. The technical tracks for the 
Advanced and Senior Leader Courses have been more problematic because 
of their length. On 1 October 10 most of these courses were transformed 
and reduced to no more than eight weeks, but the conversion of the 
courses to a format that fits the RC training environment has been 
daunting. Most will be available to the RC inside the 15 month window 
we require, but, as in those courses that provide extensive technical 
skills, require extremely expensive equipment, or have a low RC 
personnel density will not be converted. For those courses, RC Soldiers 
are scheduled to attend the longer AC course whenever possible 
dependant on RC funding and Soldiers availability. To mitigate that, 
the RC promotion system allows NCOES waivers to be requested by 
individual Soldiers who have not been afforded the opportunity to 
attend the required level of NCOES due to operational obligations or 
conflicts with their civilian career. A review of historical data 
reveals that no significant increases in NCOES waiver requests have 
been received.
    The capstone Sergeants Major Course is provided in two formats. The 
10 month resident course provides an optimum classroom experience for 
many AC Soldiers, some RC Soldiers, and a few sister service and 
foreign nation personnel. Most RC Soldiers and many AC Soldiers attend 
the course in an RC friendly format of an extensive distance learning 
module followed by a two week resident phase. When fully deployed, the 
new online Structured Self Development will be taken by all Soldiers, 
AC and RC, throughout their careers. As indicated above, we take the 
training of the RC seriously. The Army is one expeditionary force and 
we cannot afford to educate some, and not others.
    Dr. Snyder. There is quite a disparity between the length of time 
an officer spends in a career on education and the time an enlisted 
person spends on education. Can you explain this disparity? Do the 
Services need to invest more time and money in NCO education? Why or 
why not? Where would you focus any increases?
    Mr. Sparks. The Noncommissioned Officers Education System (NCOES) 
is designed to commence when a Soldier makes that transformation of 
becoming a leader at about the three year time in service milestone 
with the Warrior Leader Course (WLC). After that initial course, an NCO 
would then attend the Advanced Leaders Course (ALC) and Senior Leader 
Course (SLC) on average every three to four years tied with his or her 
rank culminating in the pinnacle NCOES course, the United States Army 
Sergeant Majors Academy (USASMA). Both the initial course of WLC and 
the final course at USASMA are non-military occupational specialty 
which means that regardless the job a Soldier does in the Army; all 
attend these levels of NCOES together in one class. The Soldiers job 
skill proponent teaches ALC and SLC and Soldiers from within the same 
job field attend the class together learning both leadership techniques 
and technical competencies.
    Since 2003, NCOES has transformed into providing a Soldier the 
right training at the right time by approaching their needs from a 
strategy of lifelong learning. While, certain institutional gates such 
as WLC, ALC and SLC must be passed through, lessons from the past 6 
years combined with technological advances have demonstrated that 
learning can occur anywhere at any time. Today's NCO is a self-
directed/motivated learner who creates an environment of continuous 
learning and demands both NCOs and subordinates exceed their comfort 
zones. The NCO is skilled at adapting their mentoring approach to 
encourage and guide subordinates in setting and achieving goals. As a 
mentor, the NCO has open and honest discussions with their Soldiers, 
and provides a proper mix of opportunities at the right time for them 
to grow.
    The Army has made a considerable investment in NCO PME. We believe 
the time allotted supports our current deployment situation. To 
continue to succeed down a path of transformation through lifelong 
learning, resources should be applied towards continued development and 
eventual application of the 2015 NCO learning environment. The time an 
NCO spends engaged in PME will likely change, some Soldiers may require 
a longer course. The NCO learning environment in 2015 recognizes that 
individual needs are important, that learning occurs across the career, 
and that there are multiple supporting actors and capabilities required 
to create an immersive and engaging lifelong learning solution focused 
on the Soldier. The environment will provide job experiences, training 
and education, and self-development opportunities that are tailored to 
the NCO throughout their profession. Formal classroom training and 
education currently provide individuals with roughly 20 to 30 percent 
of what they learn, with most competencies acquired within the work 
environment through a blend of informal social networks, formal 
learning communities, coaching and mentorships, and independent study. 
The 2015 environment will equip NCOs to learn more deeply in all of 
these contexts.
    Dr. Snyder. In exploring the most effective organizational 
structures we observed that two of you (Navy and Army) have NCO leaders 
of their NCO schools and two of you have colonels as leaders (Marine 
Corps and Air Force). Can each of you address why your school systems 
are organized the way they are and if they/you get enough support from 
your higher headquarters. For instance, the Navy (Naval War College), 
Air Force (Air University), and Marine Corps (Marine Corps University) 
schools are subordinated to your officer universities or colleges? 
[Note: Army enlisted education is directed by the Institute at Training 
and Doctrine Command rather than Army War College or Command and 
General Staff School.]

    a.  How should PME commanders, commandants, and presidents be 
chosen? What are the plusses and minuses of having enlisted leadership 
at the enlisted schools? Officer leadership?

    Mr. Sparks. The Noncommissioned Officer Education System has 
several course delivered in multiple sites around the world. These 
sites are referred to as NCO Academies. NCO Academies are typically 
small organizations that are led by a Command Sergeant Major that has 
usually served at the Brigade level. NCO Academies are usually aligned 
under the Headquarters and report through the Command Sergeant Major to 
the General Officer in charge.
    There are several reasons that his system works best for the U.S. 
Army. First, from an educational perspective all members of the NCO 
Academy have completed the requisite education required. The leader of 
the organization, typically referred to as the Commandant must have 
successfully completed all levels of Professional Military Education 
and served successfully as a Battalion, Squadron or Brigade Command 
Sergeant Major. Typically our Commandants have multiple deployment 
experiences in various units. This situation makes the Commandant 
relevant immediately. In the NCO Corps, we live by the saying Be, Know, 
Do. It would be difficult to achieve this standard if you had not ever 
participated in NCOES. With this consideration in mind the Commanding 
General of TRADOC established the Institute for Noncommissioned Officer 
Professional Development (INCOPD). INCOPD's mission is primarily to 
manage this education across a career.
    The selection of the Commandant should be focused on the 
aforementioned qualifications. The United States Army has recently 
developed a board system to select the right leader for this important 
position. The potential minuses in this situation are that currently 
there are some actions that require a Commissioned Officer, UCMJ for 
instance. Generally, this sort of activity is covered with a memorandum 
of agreement with whomever the Commanding General on the specific 
installation directs to support the NCO Academy. The instance of UCMJ 
is relatively low, primarily due to the length of the courses and the 
quality of the students.
    Dr. Snyder. Would you be in favor of a Goldwater-Nichols Reform for 
Enlisted personnel management and PME? Given that calls for jointness 
and ``whole of government approaches'' from Congress and the Executive 
Branch have been increasing, how extensively should the EPME system be 
more consciously shifting its sights to the joint, interagency, and 
multinational realms?

    a.  Is joint, interagency, and multinational integration curriculum 
being extended down to the enlisted ranks, in a conscious and 
programmed way, given that they find themselves increasingly in that 
environment whether that is in engagement, combat, or reconstruction 
and stabilization operations?

    Mr. Sparks. Enlisted Professional Military Education (EPME) 
revisions were made to prepare Soldiers to work in operating 
environments where they collaborate with Joint, Interagency, 
Intergovernmental, and Multinational (JIIM) teammates. Soldiers are 
exposed to joint education throughout the continuum of professional 
development starting with an introductory block of instruction at the 
beginning of their service. They continue to grow their knowledge and 
skills related to operating with JIIM partners through self-development 
and institutional learning. Learning content appropriate to a Soldier's 
level of experience and responsibility has been incorporated into each 
level of structured self-development. Recent revisions to the Sergeants 
Major Course have included more emphasis on planning and executing 
operations with JIIM partners. Additionally, proponents for the 
Advanced Leader Courses and Senior Leaders Courses are able to include 
JIIM content in the curriculum that is necessary to prepare Soldiers 
for JIIM operations related to an individual military occupational 
specialty. This approach allows each school to prepare Soldiers for 
JIIM requirements that are unique to the role those Soldiers play in 
the JIIM environment. In addition to the self-development and resident 
instruction at the senior and Executive levels, Soldiers receive 
assignment oriented training prior to reporting to joint positions at 
the sergeant through sergeant major levels.
    While I would not rule out future changes similar to the Goldwater-
Nichols Reform, I believe the current approach allows us to integrate 
JIIM content in the current curriculum in meaningful ways without 
significant changes to course lengths or resource requirements. Any 
mandated change to the current approach will affect other areas such as 
school attendance backlogs, promotions, Army Force Generation 
(ARFORGEN), and comprehensive fitness; therefore, I recommend 
continuing the current integration of JIIM into the existing curriculum 
until we have data that shows that method is not meeting the needs of 
the force.
    Dr. Snyder. Does diversity matter in the assignment of faculty and 
staff within EPME? How can EPME institutions increase the diversity of 
their leadership and faculty?
    Mr. Sparks. Our Army is a diverse organization and our EMPE staff 
and faculty is representative of a diverse Army. The importance of 
having a diverse educational setting also includes the student 
population as well as a diversity of ideas. We understand the value of 
tapping into the unique abilities and talents of people from different 
backgrounds and the need for faculty and staff to promote free 
thinking, selflessness, and resourcefulness.
    The selection of staff and faculty for our EPME, it is about ``who 
is best qualified'' to teach and support the development of our future 
NCO leaders. The diversity of both faculty and students contributes 
directly to the quality of instruction and educational outcomes. The 
learning environment within EPME must be a representation of the Army 
and its culture. The more diverse faculty and staff are, the more 
likely it is that all Soldiers will be exposed to a wider range of 
perspectives and to ideas drawn from a variety of life experiences. In 
a diverse learning environment, the enlisted Soldier will find comfort 
and motivation from faculty, staff members, and peers who he or she 
perceives have shared similar experiences. A diversified faculty and 
staff create a climate supportive of Equal Opportunity, where students 
can aspire to grow and foster the Army values while in the institution. 
Above all, Diversity produces Soldiers who are more complex thinkers, 
more confident in traversing cultural differences and provide the Army 
with NCO leaders capable of full spectrum operations.
    Today's EPME staff and faculty do represent a diverse Army and 
serve as role models for our future NCO Corps. While we are confident 
that our EMPE provides a diverse learning environment, there is always 
room for improvement and we continue to evaluate the structure and 
quality of our EMPE staff and faculty.
    Dr. Snyder. How much of your EPME curriculum is focused on critical 
thinking, communication, and resource management? Should emphasis in 
any or all of these areas be increased? At what levels?
    Mr. Sparks. We have identified communication, critical thinking, 
and resource management to be key attributes required of our 
Noncommissioned Officers (NCO). Each is addressed extensively in the 
NCO Annex to the Army's Leader Development Strategy and is sequentially 
and progressively integrated into our PME.
    Oral and written communication skills are fundamental to succeed as 
a leader. Beginning with Writing in the Army Style and Prepare a 
Presentation in the Structured Self Development (SSD1) that begins 
shortly after a Soldier graduates from Initial Entry Training, through 
Army Correspondence, Developmental Counseling, and oral presentation of 
History of the NCO in the Warrior Leader Course (WLC), communication 
skills are sequentially and progressively addressed through the 
Advanced Leader, Senior Leader, and Sergeants Major Courses. Basic 
communications subjects exist at each level of PME, but the bulk of the 
communication skills are developed through their use in almost every 
subject covered.
    In SSD1 Soldiers are introduced to the Military Decision Making 
Process and Lean Six Sigma fundamentals, but beginning in WLC Soldiers 
begin the actual development of critical thinking skills. In subjects 
as diverse as Composite Risk Management and Tactical Operations in 
Warrior Leader Course, and throughout PME, NCOs are trained and 
educated in the process to conceptualize, synthesize, and apply 
information from a broad spectrum of sources to develop optimum and 
effective decisions. Although the emphasis is on the ability of NCOs to 
use their critical thinking skills in military operations we also 
provide opportunities for them to exercise their abilities in making 
personal, individual decisions.
    As with communication and critical thinking skills, training and 
education on resource management begins in SSD1 with an introduction to 
Supply Activities in a Unit. In WLC NCOs are introduced to Supply 
Procedures and the care of our number one resource, Soldiers, through 
Resiliency Training and the Prevention of Suicide. This training 
progresses through each level of PME and culminates in subjects such as 
Military Contracting in Support of Army Operations and Managing 
Organizational Stress in the Sergeants Major Course.
    Given that each of the subjects discussed above is identified as a 
core skill required of our NCOs and that each is covered extensively 
throughout PME no added emphasis on any of them is necessary at this 
time. The Institute for NCO Professional Development continues to 
monitor requirements and will adjust courses as necessary.
    Dr. Snyder. Should senior NCOs attend officer PME courses?
    Mr. Sparks. A recent revision and upgrade of the Sergeants Major 
Course was done to include topics that field-grade officers study at 
the Command and General Staff College. The resident and nonresident 
Sergeants Major Courses will have content that is similar to the 
Intermediate Level Education courses attended by captains and majors; 
however, the material is tailored to prepare our most senior NCOs to 
serve primarily at the Battalion and Brigade levels. The goal of this 
effort is not to make senior noncommissioned officers more like 
officers; however, the changes do prepare senior NCOs to become more 
involved the process of planning and executing operations. To that end, 
the revised course of instruction includes several modules that are 
similar to material taught at CGSC. Moreover, the Academy no longer 
administers objective tests with multiple-choice answers; rather, it 
requires use of the progressive and sequential training, education and 
experience Soldiers have gained, to develop comprehensive solutions 
that are doctrinally accurate to complex problems from the operational 
environment.
    The role of NCOs in planning and executing complex operations has 
expanded at all levels; however, changes to EPME have occurred, and 
will continue to be made in order to prepare NCOs to succeed at all 
levels. Although recent operations have expanded the responsibilities 
of NCOs into areas that were previously only the domain of the officer 
corps, I believe the special relationship between officers and NCOs is 
enhanced by the current structure of EPME and PME with one exception. 
Select senior NCOs that serve in senior strategic leadership positions 
may benefit from attending a senior service school but should only 
attend if a direct benefit relative to the requirements of their 
position or development of the NCO can be identified. Currently, War 
College enrollment is restricted to officers and civilians. A policy 
change would permit attendance in the event the education is considered 
important for either the position or development of the NCO. A Senior 
service school may enhance those NCOs ability to advise leaders of 
strategic national defense missions.
    Future revisions to EPME will continue to examine content from 
joint and officer PME that may be integrated into EPME in ways that are 
meaningful to how NCOs support current and future operations.
    Dr. Snyder. Some of the Services requested expanded Title 10 
authority during the officer PME study. This came up again during the 
staff's EPME research. With the changes in your EPME courses, it 
appears that expanded authority might be necessary. Can you briefly 
explain if you need it and what you'd do with it?

    a.  How will EPME institutions attract top-tier civilian faculty if 
they receive Title 10 authority?

    Mr. Sparks. EPME has undergone a complete change in course content 
that now delivers a more challenging educational curriculum that 
requires instructional skills that higher level educators provide. 
Title 10 provides the means to hire civilian instructors and professors 
who conform to a performance based education model and to balance 
military and civilian perspectives in the EPME educational mission. 
There is no provision for this under Title 5. Unlike Title 5, Title 10 
provides the flexibility to attract qualified faculty and to ensure 
continuous professional development within the faculty. Title 10 
Authority provides the flexibility to employ based on a 1-5 year, 
renewable term basis supporting the requirement for continuous 
improvement and the ability to reduce staff based on requirements. 
Using Title 10 is definitely not part time employment.
    We will attract top tier civilian faculty members through Title 10 
by a robust and innovative faculty development program and student 
curriculum. This dynamic approach through Title 10 provides more 
flexibility in not only attracting but also retaining those individuals 
who are ``the best of the best'' across industry, academia and the 
services. Title 5 does not lend itself to this concept of rapid change 
in requirements or educational concepts when compared to the 
flexibility of Title 10.
    Dr. Snyder. When we studied Officer PME, we discovered a pretty big 
disconnect between the personnel systems and the PME systems. 
Specifically, we addressed who gets selected to attend and when, what 
course they go to, and where they go afterward as far as putting the 
education to good use. Does the enlisted PME system have similar 
challenges?
    Mr. Lutterloh. Navy's personnel and Enlisted PME systems are well 
aligned. The Enlisted PME system is structured to prepare senior 
enlisted leaders for a breadth of increasing responsibilities. The 
educational baseline for senior enlisted across the spectrum of PME 
ensures that they are versed in essentials of naval power, effective 
maritime spokespersons, and versed in service capabilities and the 
fundamentals of joint warfare. Our most sought after senior enlisted 
leadership positions are Chiefs of the Boat and Command Master Chiefs 
(COB/CMC). The Navy requires that all COB/CMCs be graduates of the 
Senior Enlisted Academy (SEA), with completion of Primary PME as a 
prerequisite to attend SEA. Accordingly, our best performers with the 
greatest potential are seeking and planning both to attend SEA and 
assume the most challenging assignments.
    Dr. Snyder. Virtually all the officer PME education venues offer a 
master's degree along with PME. Other than the Community College of the 
Air Force and the College of the American Soldier programs, does your 
Service's enlisted PME system provide for degrees or accredited college 
hours to apply to a degree? How important (or is it required) for 
enlisted members to have an Associate's Degree, Bachelor's Degree, or 
Master's Degree at some point in their career for promotion?
    Mr. Lutterloh. Graduates of the Senior Enlisted Academy (SEA) 
Resident Course are recommended for 18 credit hours (3 lower 
divisional, 15 upper divisional) by the American Council on Education 
(ACE) and graduates of the SEA Non-Resident course are ACE-recommended 
for 6 credit hours (all lower divisional). Demographic data reflect the 
following highest levels of education for SEA graduates: 6% have a 
Masters or Doctorate Degree, 24% have a Bachelor's Degree, 26% have an 
Associate's Degree, and 44% have a high school diploma. Over two-thirds 
of SEA graduates reported on their exit survey that they intend to 
pursue higher education in the next two to three years.
    The Navy clearly recognizes the benefit of advanced education and 
highly encourages all Sailors and civilians in the workforce to strive 
to reach their full potential. While an advanced degree is not required 
for an enlisted Sailor's promotion, promotion boards may give special 
consideration for an advanced degree. The Navy provides tuition 
assistance to military members to support attainment of degrees.
    Dr. Snyder. How is the Reserve Component (RC) included in your 
enlisted PME program? Do reservists and Guardsmen have the opportunity 
to attend or take the PME they require for promotion? How has the 
transition from a strategic to an operational reserve (with increased 
deployments and length of deployments) affected RC opportunities to 
complete EPME?
    Mr. Lutterloh. Active (AC) and reserve component (RC) personnel 
maintain the same opportunities to attend PME. For the enlisted force 
(active and reserves), all PME requirements through the grade of chief 
petty officer can be accomplished via NKO. One of the key reasons that 
the Navy decided to field the significant elements of the PME Continuum 
online through Navy Knowledge Online (NKO) was to ensure its 
availability to the total force--active duty, reservists, and motivated 
DON Civilians.
    Both AC and RC components share requirements for Primary PME to 
attend the Senior Enlisted Academy (SEA). The SEA resident course is 
available to the Navy's reserve component which has produced 17 
graduates over the last three years. The SEA Non-Resident course was 
designed specifically for reservists, allowing them to use their two-
week Annual Training to fulfill the 12-day resident portion of the 
course.
    The Navy has been mobilizing RC members since 2001. There has been 
no decrement for RC EPME opportunities as a result of transition from a 
strategic to an operational status.
    Dr. Snyder. There is quite a disparity between the length of time 
an officer spends in a career on education and the time an enlisted 
person spends on education. Can you explain this disparity? Do the 
Services need to invest more time and money in NCO education? Why or 
why not? Where would you focus any increases?
    Mr. Lutterloh. Our priorities for all Sailors are clear--mastery of 
their technical ratings, warfare qualification, and progressive 
development of leadership skills. Each enlisted rating has its unique 
professional requirements and operational rhythm in terms of time spent 
in assignments at sea or ashore. The Navy has taken a broad approach to 
this issue, providing increased opportunity for education in a number 
of venues as well as setting a required baseline of knowledge. 
Requirements for officer education have been developed over an extended 
period of time. They include considerable strategic, operational, 
scientific and analytical subjects generally considered part of the 
education domain. Navy's goal is to facilitate all Sailors, officer and 
enlisted, to reach their full potential.
    The Navy believes this broad approach to be the best one and would 
not at this point endorse a focus on increasing education for Non-
Commissioned Officers (NCOs). Navy fielded a full continuum of 
Professional Military Education for officer and enlisted members in 
January 2008. Learning objectives are consistent with changing roles 
and responsibilities across a career.
    Dr. Snyder. In exploring the most effective organizational 
structures we observed that two of you (Navy and Army) have NCO leaders 
of their NCO schools and two of you have colonels as leaders (Marine 
Corps and Air Force). Can each of you address why your school systems 
are organized the way they are and if they/you get enough support from 
your higher headquarters. For instance, the Navy (Naval War College), 
Air Force (Air University), and Marine Corps (Marine Corps University) 
schools are subordinated to your officer universities or colleges? 
[Note: Army enlisted education is directed by the Institute at Training 
and Doctrine Command rather than Army War College or Command and 
General Staff School.]

    a.  How should PME commanders, commandants, and presidents be 
chosen? What are the plusses and minuses of having enlisted leadership 
at the enlisted schools? Officer leadership?

    Mr. Lutterloh. In October 2008, overall command of Senior Enlisted 
Academy (SEA) shifted from the Naval Education and Training Command to 
the Naval War College (NWC). This shift was conducted to emphasize the 
educational aspects of the SEA experience. The SEA is now optimally 
aligned with NWC with a Senior Enlisted member as its Director. The 
relationship and co-location with NWC allows the SEA to leverage the 
educational expertise of the NWC professors and infrastructure to 
enhance the Enlisted PME experience. The SEA Enlisted Director receives 
outstanding support from the dedicated military and civilians at the 
NWC in its educational mission and the mission supporting functions. 
This Expertise has brought measurable progress to SEA and permitted the 
SEA faculty to focus on their teaching requirements. Additionally, PME 
content is the responsibility of NWC and provides additional value to 
the SEA.
    The selection of post-major command tour Command Master Chiefs 
(CMCs) has been very successful in maintaining the highest caliber of 
Enlisted Directors at the SEA. The strongest point of maintaining a 
senior enlisted leader as the Director is in maintaining a deck plate 
leader emphasis on curriculum content and focus. Senior Enlisted 
Directors facilitate peer-to-peer conversations among SEA graduates 
serving throughout the Fleet. The Navy culture promotes a strong Chief 
Petty Officer Mess with the CMC as its leader. The SEA is a reflection 
of that culture and epitomizes the idea that the SEA is for ``senior 
enlisted leaders'' and ``run by senior enlisted leaders'' which 
increases the validity of the education that the SEA provides to the 
force.
    Dr. Snyder. Would you be in favor of a Goldwater-Nichols Reform for 
Enlisted personnel management and PME? Given that calls for jointness 
and ``whole of government approaches'' from Congress and the Executive 
Branch have been increasing, how extensively should the EPME system be 
more consciously shifting its sights to the joint, interagency, and 
multinational realms?

    a.  Is joint, interagency, and multinational integration curriculum 
being extended down to the enlisted ranks, in a conscious and 
programmed way, given that they find themselves increasingly in that 
environment whether that is in engagement, combat, or reconstruction 
and stabilization operations?

    Mr. Lutterloh. Navy believes the current overarching guidance and 
curricula framework to be satisfactory. The Chairman of the Joint 
Chiefs of Staff has established policy to ensure education of joint 
matters permeates the Navy's PME Continuum. Navy EPME curriculum 
content is current and relevant, and addresses multi-Service and 
multinational topics in its programs. The primary focus of EPME remains 
to ensure that enlisted Sailors learn about their own Service's 
responsibilities, capabilities, and Navy's role as a key element of a 
multiservice force within an interagency and multinational environment. 
The requirements within the Navy's PME Continuum were developed within 
the context of the contemporary operating environment and extend 
elements of joint matters throughout the Continuum.
    The Senior Enlisted Academy (SEA) curriculum covers Joint and 
Multinational topics through briefs, lectures, and research projects. 
Students from other services and international navies are enrolled in 
every SEA Resident class. Students from international navies give 
regional briefs as part of their communications curriculum. 
Additionally, the SEA currently has an Army sergeant major, an Air 
Force master sergeant, a Coast Guard master chief, and a German Navy 
master chief equivalent on staff as classroom facilitators. An increase 
of an international partner facilitator from the Pacific Fleet region 
is being reviewed.
    The SEA is currently reviewing proposed lecture topics to enhance 
its interagency subject matter coverage. Beyond the SEA, Navy Senior 
Enlisted Leaders (SEL) selected for Joint Command SEL billets attend 
the National Defense University's KEYSTONE course which covers Joint, 
Interagency, and Multinational Integration curriculum.
    Dr. Snyder. Does diversity matter in the assignment of faculty and 
staff within EPME? How can EPME institutions increase the diversity of 
their leadership and faculty?
    Mr. Lutterloh. Yes, diversity does matter in the assignment of 
faculty, staff, and students at the Senior Enlisted Academy (SEA). 
Ensuring the resident SEA class has representatives from the other US 
military services and, whenever possible, representatives from partner 
nations are key elements in achieving diversity. The SEA uses the ``9 
Dimensions of Diversity'' when assigning facilitators and students to 
classroom groups. The SEA ensures that race, gender, ethnicity, service 
(Army/Navy/Marines/Air Force/Coast Guard), component (Active/Reserve), 
nationality (International students), rating, warfare community/
specialty, and geographic area of operations/homeport are taken into 
account when organizing the group makeup to ensure the group has as 
many diverse opinions as possible to enhance the classroom discussion 
and dynamics. Similarly, the educational theme of diversity and 
effectively dealing with it to achieve a unit's true potential 
permeates the course of instruction for these proven enlisted leaders.
    Dr. Snyder. How much of your EPME curriculum is focused on critical 
thinking, communication, and resource management? Should emphasis in 
any or all of these areas be increased? At what levels?
    Mr. Lutterloh. Critical thinking and communication topics are a 
focus of the Senior Enlisted Academy (SEA) curriculum and highlighted 
in the Diplomacy, Information/intelligence, Military, and Economics 
(DIME) capstone event termed ``War-games.'' War-games is an interactive 
role-play session based on DIME concepts that each group participates 
in as different countries with different objectives. Communication, an 
essential element of successful leadership especially critical at the 
higher levels, is embedded throughout the educational outcomes and the 
SEA curricula. Communication topics include effective writing, 
extemporaneous speaking, impromptu speaking, organizational 
communications, five oral presentations, and four written essays. SEA 
curriculum provides adequate emphasis on all three areas with 
communications receiving the highest emphasis. Resource management is 
covered in the Defense Resource Allocation topic. ``Capable of Critical 
Thought with an Operational-level Perspective'' is one of the four 
educational outcomes required for graduation from the SEA.
    Dr. Snyder. Should senior NCOs attend officer PME courses?
    Mr. Lutterloh. The Navy has a program in which senior enlisted 
leaders with exceptional potential, who have earned a Bachelor's 
Degree, may attend the College of Naval Warfare at the Naval War 
College. This educational opportunity is for leaders with the potential 
to become advisors to the Navy and the nation's senior military 
leadership. The program is highly selective with a limit of not more 
than four enlisted leaders attending in an academic year. To date, 
graduates have gone on to billets such as Master Chief Petty Officer of 
the Navy (MCPON), the senior enlisted leader for Naval Forces Europe, 
the Director of Chief of the Boat/Command Master Chief (COB/CMC) School 
and Senior Enlisted Advisors (SEA) to several joint task force 
commanders. Additionally, senior chiefs and master chiefs on a selected 
basis are permitted to participate in the Intermediate-level, non-
resident PME programs at the Naval War College.
    Dr. Snyder. During our Officer PME study, the Army, Air Force, and 
Marine Corps asked for expanded Title 10 hiring authority so they could 
hire professional educators rather than trainers. The Navy supported 
that position for others although they didn't think they required for 
themselves because they're organized differently.

    a.  With the changes in your EPME courses, it appears that expanded 
authority might be necessary except that you can capitalize on the 
collocation of Naval War College Faculty. Can you briefly explain if 
you need it and what you'd do with it?

    b.  How will EPME institutions attract top-tier civilian faculty if 
they receive Title 10 authority?
    Mr. Lutterloh. Traditionally, the Senior Enlisted Academy (SEA) 
faculty has been composed of enlisted leaders on active duty or 
reservists on extended tours of active service. The importance of using 
Active Duty Senior Enlisted Facilitator Staff cannot be understated. 
The deck plate experiences that the Senior Enlisted Facilitators bring 
to the classroom are vital to the education process at the SEA. The 
Navy intends to continue to follow that model and, at this point, does 
not plan to add civilians to its faculty. One of the important elements 
in the realignment of command which brought SEA under the purview of 
Naval War College was to make more effective use of the NWC faculty's 
expertise in support of SEA faculty and curriculum. While NWC had for 
years provided support in the form of subject matter experts and 
visiting lecturers in support of SEA, the closer bond facilitates 
faculty development and curriculum development at SEA. Since the Naval 
War College's academic programs remain the College of Naval Warfare and 
the College of Naval Command and Staff, both of which are ten month 
programs, the College fully meets the statutory criteria for hiring 
faculty under Title 10 authority. For decades, NWC has hired a number 
of research faculty members under this Title 10 authority. Therefore, 
if the requirement arose to add Title 10 faculty positions at SEA, the 
law currently provides that authority.
    Dr. Snyder. When we studied Officer PME, we discovered a pretty big 
disconnect between the personnel systems and the PME systems. 
Specifically, we addressed who gets selected to attend and when, what 
course they go to, and where they go afterward as far as putting the 
education to good use. Does the enlisted PME system have similar 
challenges?
    Mr. Sitterly. The Air Force (AF) enlisted assignment system is 
designed to distribute Airmen equitably among major commands (MAJCOM) 
based on manning levels to meet mission requirements. Although certain 
special duty assignments have specific training/education requirements, 
there are none specifically for EPME. The AF EPME system is managed 
separately using a deliberate process that identifies Airmen to attend 
EPME based on priority of need (i.e., projected promotion to the next 
higher grade, current grade, time in current grade) to meet required 
grade appropriate competency development in Joint and Air Force 
guidance. Thus, the Air Force does not link the two systems and both 
systems are working as designed to meet AF mission and development 
requirements.
    Although we currently do not have an official AF-wide system or 
process in place, the Air Force Enlisted Force Development Panel is 
exploring various options to deliberately develop our SNCOs via sister 
service and international EPME with a goal of linking AF graduates of 
sister service or international EPME to specific locations where the 
experience will be beneficial to the member and the mission.
    Dr. Snyder. Virtually all the officer PME education venues offer a 
master's degree along with PME. Other than the Community College of the 
Air Force and the College of the American Soldier programs, does your 
Service's enlisted PME system provide for degrees or accredited college 
hours to apply to a degree? How important (or is it required) for 
enlisted members to have an Associate's Degree, Bachelor's Degree, or 
Master's Degree at some point in their career for promotion?
    Mr. Sitterly. The Community College of the Air Force (CCAF) awards 
lower-division college credit to graduates of EPME courses. These 
credits can be applied to the member's CCAF Associate of Applied 
Science Degree program, or the transcript credit can be applied to 
another college program at their discretion.
    In addition, Air University offers the Associate to Baccalaureate 
Cooperative (ABC) which links CCAF graduates with colleges that offer 
4-year degree programs related to the member's CCAF 2-yr degree. 
Participating schools have agreed to allow students to transfer CCAF 
degree credits and only complete an additional 60 semester hours to 
earn a bachelor's degree.
    The Air Force requires an associate's level degree for the more 
than 6,000 technical training and EPME faculty at CCAF-affiliated 
schools AF-wide.
    Although not a requirement for promotion, current Air Force 
guidance requires active duty E7--E-8 to complete a CCAF degree in 
order to be eligible for Senior Rater Endorsement on their annual 
performance report. This is important for favorable promotion 
consideration as the member's likelihood of getting promoted without it 
is significantly hampered.
    Additionally, in regard to degree requirements, the Air Force has a 
program that permits selected enlisted personnel to attend the Air 
Force Institute of Technology (AFIT) to receive a graduate (Master's) 
degree. The program's purpose is to enhance combat capability to 
provide the Air Force highly proficient NCOs technically experienced in 
their career field and highly educated through AFIT graduate.
    Dr. Snyder. How is the Reserve Component (RC) included in your 
enlisted PME program? Do reservists and Guardsmen have the opportunity 
to attend or take the PME they require for promotion? How has the 
transition from a strategic to an operational reserve (with increased 
deployments and length of deployments) affected RC opportunities to 
complete EPME?
    Mr. Sitterly. About 97.5% Air National Guard (ANG) and Air Force 
Reserve (AFR) participate in EPME distance learning (DL) courses. 
According to current policy, reservists and Guardsmen must complete 
resident or DL required EPME to be promoted. The ARC Airmen are 
permitted and do attend resident courses for each level of EPME on a 
limited basis due to capacity limitations.
    This transition has not affected the ARC since most enlisted Airmen 
complete their EPME requirements through DL. Though it is a challenge 
for AFRC Airmen to attend lengthy resident EPME courses since they have 
full-time civilian jobs (not so for ANG), both the ANG and AFRC would 
like to fill additional seats at resident PME schools if more 
allocations were provided.
    Dr. Snyder. There is quite a disparity between the length of time 
an officer spends in a career on education and the time an enlisted 
person spends on education. Can you explain this disparity? Do the 
Services need to invest more time and money in NCO education? Why or 
why not? Where would you focus any increases?
    Mr. Sitterly. Some caution is needed in trying to do a direct 
comparison between time spent in education for officer and enlisted 
personnel. The two populations are different in significant ways and 
OPME and EPME are developed to meet the unique developmental needs of 
their respective populations. For example, enlisted personnel primarily 
function at the tactical to operational levels across the Air Force 
while officers range from the tactical to strategic. Moreover, 
educational needs are based on Air Force requirements. We recently 
completed a comprehensive review of enlisted development across the 
continuum of learning to ensure that Air Force requirements are being 
satisfactorily addressed. From this enlisted continuum review, we 
confirmed that the number of educational requirements have more than 
doubled over the last 10 years. In addition, the complexity of these 
requirements has also significantly increased while the time allocated 
for EPME courses has remained the same. Hence, more time could be 
proportionately allocated to all EPME levels to varying degrees based 
on increased requirements.
    The Air Force wants to invest more time and money in NCO education 
to keep pace with Joint and Air Force requirements; however, it is 
difficult given competing priorities in a financially constrained 
environment. Additional personnel, funds, and expertise are needed to 
develop and sustain both resident and distance learning (DL) courses to 
keep pace with emerging education requirements.
    Dr. Snyder. In exploring the most effective organizational 
structures we observed that two of you (Navy and Army) have NCO leaders 
of their NCO schools and two of you have colonels as leaders (Marine 
Corps and Air Force). Can each of you address why your school systems 
are organized the way they are and if they/you get enough support from 
your higher headquarters. For instance, the Navy (Naval War College), 
Air Force (Air University), and Marine Corps (Marine Corps University) 
schools are subordinated to your officer universities or colleges? 
[Note: Army enlisted education is directed by the Institute at Training 
and Doctrine Command rather than Army War College or Command and 
General Staff School.]

    a.  How should PME commanders, commandants, and presidents be 
chosen? What are the plusses and minuses of having enlisted leadership 
at the enlisted schools? Officer leadership?

    Mr. Sitterly. Unlike the other services, the Air Force has 
established Air University (AU) as a centralized location for the 
oversight of all education programs. Within the AU organizational 
structure, the Barnes Center for EPME holds the same level of status as 
the other AU centers that report to the AU Commander. These include the 
Spaatz Center (officer PME), the LeMay Center (doctrine development and 
doctrine education), the Eaker Center (professional continuing 
education), the Holm Center (pre-commissioning and citizenship 
programs), and the Barnes Center (enlisted PME and other education 
programs).
    The Commander of the Barnes Center for Enlisted Education is an O-
6. Senior enlisted personnel serve in significant leadership positions 
across the Barnes Center and each EPME school. Chief Master Sergeants 
serve as commandants (the top leader) for each of the 11 Air Force NCO 
Academies (worldwide), the Senior NCO Academy, and First Sergeant 
Academy. Additionally, within the Barnes Center, a CMSgt serves as the 
senior enlisted leader for all enlisted education programs. To select 
these senior enlisted leaders, there is a rigorous and highly 
competitive ``nominative'' process. For other school commandant 
positions, the Commander's Involvement Program (CIP) is used whereby 
chief master sergeants are carefully screened and selected. 
Furthermore, at the 69 Airman Leadership Schools located Air Force 
wide, top performing Master Sergeants are screened and selected as 
Commandants to lead and manage the faculty of their school. Each of 
these ALSs fall under the Force Development Flight within the Force 
Support Squadron at each Wing and Major Command.
    The current process for selecting AF EPME commandants is working 
well. As with other special duty assignments that require superior 
performers, EPME personnel are screened and evaluated based on merit by 
other senior enlisted personnel and ultimately hired by their 
commander.
    Having enlisted commandants leading EPME schools is working 
superbly and provides the first hand enlisted subject matter expertise, 
experience, and guidance to other enlisted personnel. The officer 
oversight provides the additional leadership and support to elevate and 
address issues as needed to appropriate leadership levels and AF 
corporate structure.
    Dr. Snyder. Would you be in favor of a Goldwater-Nichols Reform for 
Enlisted personnel management and PME? Given that calls for jointness 
and ``whole of government approaches'' from Congress and the Executive 
Branch have been increasing, how extensively should the EPME system be 
more consciously shifting its sights to the joint, interagency, and 
multinational realms?

    a.  Is joint, interagency, and multinational integration curriculum 
being extended down to the enlisted ranks, in a conscious and 
programmed way, given that they find themselves increasingly in that 
environment whether that is in engagement, combat, or reconstruction 
and stabilization operations?

    Mr. Sitterly. No, we do not believe that a Goldwater-Nichols Reform 
for enlisted personnel management and PME is needed at this time. The 
Air Force does recognize that there needs to be a balance between Air 
Force centric and Joint curricula requirements. Air Force EPME courses 
have been and should continue to increase jointness, interagency, and 
multinational coverage but not to the extent that core curriculum areas 
for Air Force Leadership, Profession of Arms, and Communication are 
reduced while meeting the Joint, interagency, and multinational 
education requirements prescribed in AFPD 36-26, Total Force 
Development, Institutional Competencies and CJCS 1805.1, Enlisted 
Professional Military Education Policy. In fact, all resident EPME 
academic programs were updated or they are being updated to meet the 
requirements prescribed in the Joint and Air Force guidance.
    The Air Force is continually working on additional ``Joint'' 
deliberate development initiatives. One such initiative is to require 
AF SNCOs to attend a Joint Service EPME school prior to be assigned to 
a joint billet. This will help build ``Joint'' partnerships/
relationships and will help utilize/align education opportunities with 
valid mission requirements.
    Dr. Snyder. Does diversity matter in the assignment of faculty and 
staff within EPME? How can EPME institutions increase the diversity of 
their leadership and faculty?
    Mr. Sitterly. Yes, diversity matters in the assignment of EPME 
faculty and staff. The Air Force has a strong track record in 
leveraging diversity throughout the force and Enlisted PME is no 
different. Hiring authorities balance the need to maintain a diverse 
faculty with respect to gender and race, as well as key demographic 
variables such as Air Force Specialty Code or AFSC. It's vital that our 
students in the classroom are able to see a faculty that represents the 
richness of our diverse force, especially in academic discussions and 
case studies involving complex people issues. The Air Force will 
continue to ensure integrity in the hiring process and procedures and 
monitor faculty diversity.
    Dr. Snyder. How much of your EPME curriculum is focused on critical 
thinking, communication, and resource management? Should emphasis in 
any or all of these areas be increased? At what levels?
    Mr. Sitterly. The following breakouts estimate the number of hours 
dedicated to each topic area as each relates to resident courses:


----------------------------------------------------------------------------------------------------------------
                                                     Total
                     Course                         Course     Critical      Communication         Resource
                                                     Hours     Thinking                           Management
----------------------------------------------------------------------------------------------------------------
Airman Leadership School (ALS)                          192         125                  54                   1
----------------------------------------------------------------------------------------------------------------
NCO Academy (NCOA)                                      134         134                  56                   1
----------------------------------------------------------------------------------------------------------------
AF SNCO Academy (AFSNCOA)                               240         157                  45                   1
----------------------------------------------------------------------------------------------------------------
CMSgt Leadership Course (CLC)                            64           0                   0                   3
----------------------------------------------------------------------------------------------------------------


    Yes, the Air Force is increasing emphasis in these areas. The ALS 
recently incorporated more emphasis on communication through reflecting 
thinking, writing, and journaling aimed at developing a personal 
leadership philosophy with peer review. Additionally, we are revising 
AFSNCOA and NCOA programs to increase emphasis on resource management, 
cross cultural communication, and negotiation. Through reflective 
thinking essays on leadership topics and reflective journaling 
exercises, students will link their own strengths and improvement 
opportunities in order to author a professional development plan.
    Critical Thinking: Each course is designed using instructional 
teaching methodologies of guided discussion (Socratic Debate) and case 
analysis where students are confronted with leadership issues and 
required to apply principles learned to determine courses of action 
necessary to resolve the issue.
    Communication: Students write papers, give briefings, counsel 
subordinates, provide performance feedback plans and execute meetings, 
and perform group projects under practice and testing conditions.
    Resource Management: The AFSNCOA (Oct 10) and the NCOA (Jan 11) 
will adjust curricula to address the prescribed resource management 
competencies. Students will develop Financial Execution Plans, prepare 
unfunded requests, develop Authorization Change Requests, and use Unit 
Management Documents (UMD) to solve manpower problems associated with 
daily operations.
    Dr. Snyder. Should senior NCOs attend officer PME courses?
    Mr. Sitterly. Although the Air Force recognizes that there is value 
in enlisted Airmen partnering with officers during PME, we are not 
convinced that enlisted Airmen need to attend officer PME. Since 2006, 
we have paired junior officers at the Air and Space Basic Course (ASBC) 
with senior NCOs attending the AF SNCO Academy for 3 days. 
Additionally, for the first time, we sent two AF SNCOs to officer Joint 
PME; one to the 13 week Joint Combined Warfighting School and one to 
the 40 week Advanced Joint Professional Military Education course at 
the Joint Forces Staff College. We plan to continue this practice since 
both officer and enlisted Airmen benefit tremendously from a better 
understanding of each other's role, responsibilities and challenges 
from this partnership.
    Dr. Snyder. The Air Force's distance learning program is 
predominately if not exclusively done by ``boxes of books''. Obviously, 
you can't update those courses very easily and the cost for updating, 
printing, storing, and shipping is significant. When does the Air Force 
plan to transition to a web-based or internet based computer distance 
learning model, or a ``blackboard'' system through which students can 
more readily interact with other students and faculty? What resources 
would you need to transition the courses?
    Mr. Sitterly. The Air Force has made great strides in leveraging 
technology to facilitate PME learning. As an example, the Air Command 
and Staff College On-line Master's Degree Program (OLMP) launched in 
2007 has been extremely successful in accomplishing desired learning 
outcomes via a distance learning (DL) model. We are currently exploring 
ways to extend the lessons learned from the OLMP to other PME programs. 
In fact, the Air Force conducted preliminary research to move all of 
enlisted DL on-line. To this end, we are developing a business case 
that examines various DL models as well as their learning and cost 
implications to determine the best course of action to deliver robust 
PME DL for Total Force Airmen. The analysis will ascertain the 
resources required to implement, and the long term efficiencies that 
can be gained for such transition. At this juncture, the analysis is 
not complete and it would be premature to attempt to articulate the 
exact investment, and long term efficiencies to be gained.
    Dr. Snyder. Air University requested expanded Title 10 authority 
during the officer PME study. This came up again at the Barnes Center. 
With the changes in your EPME courses, it appears that expanded 
authority might be necessary. Can you briefly explain if you need it 
and what you'd do with it?

      a. How will EPME institutions attract top-tier civilian faculty 
if they receive Title 10 authority?

    Mr. Sitterly. Prior to the last 10 years, enlisted education 
focused primarily on traditional enlisted core competencies such as 
leadership, communication skills, profession of arms, and management. 
Since these are enlisted competencies, they can be developed in EPME 
curriculum with enlisted expertise. However, with recent AF mandates 
such as nuclear surety, cyber operations, irregular warfare, etc., 
enlisted personnel do not have the core expertise needed to address 
these more complex topics. Using Title 10 hiring authority is vital to 
addressing these complex, ever-changing demands for rapid curriculum 
innovation to meet AF needs.
    Enlisted education doesn't result in the award of a graduate 
degree, thus there is not a compelling case for Administratively 
Directed (AD) teaching faculty. However, there is a significant need 
for AD personnel in administrative faculty and curriculum development 
and we have identified notional positions within enlisted education 
where the placement of AD faculty might be appropriate. We identified 
seven positions that include the senior Education Advisor at the Barnes 
Center Headquarters, three deans of academics from across the Center, 
and three within EPME curriculum development requiring specific 
academic subject matter expertise to meet the complex educational 
challenges. The very nature of Title 10 positions would facilitate the 
hiring of qualified civilian faculty. Given that enlisted education 
programs are offered under the Air University umbrella, a regionally 
accredited institution, we're confident we'll be able to secure the 
faculty with the right credentials.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
